<html>
<title> - HEARING ON H.R. 107, H.R. 400 AND H.R. 452</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
              HEARING ON H.R. 107, H.R. 400, AND H.R. 452

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             March 8, 2001

                               __________

                            Serial No. 107-2

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                ---------

                   U.S. GOVERNMENT PRINTING OFFICE
71-123                     WASHINGTON : 2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   Edward J. Markey, Massachusetts
  Vice Chairman                      Dale E. Kildee, Michigan
W.J. "Billy" Tauzin, Louisiana       Peter A. DeFazio, Oregon
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Joel Hefley, Colorado                Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Robert A. Underwood, Guam
Richard W. Pombo, California         Adam Smith, Washington
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
George Radanovich, California            Islands
Walter B. Jones, Jr., North          Ron Kind, Wisconsin
    Carolina                         Jay Inslee, Washington
Mac Thornberry, Texas                Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Bob Schaffer, Colorado               Rush D. Holt, New Jersey
Jim Gibbons, Nevada                  James P. McGovern, Massachusetts
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
C.L. "Butch" Otter, Idaho            VACANCY
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana
VACANCY

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                    JOEL HEFLEY, Colorado, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
Wayne T. Gilchrest, Maryland             Samoa
George Radanovich, California        Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 8, 2001....................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     7
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     5
        Prepared statement on H.R. 452...........................     6
    Hastert, Speaker J. Dennis, a Representative in Congress from 
      the State of Illinois, Prepared statement on H.R. 400......     3
    Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado..........................................     2
         Prepared statement on H.R. 107, H.R. 400, and H.R. 452..     4
    Kildee, Dale E., a Representative in Congress from the State 
      of Michigan................................................    27
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia.......................................    27
        Prepared statement on H.R. 452...........................    30
        Letter submitted for the record..........................    32
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................    26

Statement of Witnesses:
    Brody, Carolyn, Member, Commission of Fine Arts, Washington, 
      DC.........................................................    47
        Prepared statement on H.R. 452...........................    49
    Craig, Dr. Bruce, Director, National Coordinating Committee 
      for the Promotion of History, Washington, DC...............    86
        Prepared statement on H.R. 107...........................    87
    Dishner, Jimmy, Deputy Assistant Secretary of the Air Force 
      (Installations), The Pentagon, Arlington, VA...............    51
        Prepared statement on H.R. 107...........................    52
    Norquist, Grover, Chairman, Ronald Reagan Legacy Foundation, 
      Washington, DC.............................................    64
        Prepared statement on H.R. 452...........................    65
    Powers, Francis Gary, Jr., Founder, Cold War Museum, Fairfax, 
      VA.........................................................    68
        Prepared statement on H.R. 107...........................    72
    Ring, Richard G., Associate Director, Park Operations and 
      Education, National Park Service, Department of the 
      Interior, Washington, DC...................................    35
        Prepared statement on H.R. 107...........................    36
        Prepared statement on H.R. 400...........................    38
        Prepared statement on H.R. 452...........................    38
        Responses to questions submitted for the record..........    41
    Wymbs, Norm, Chairman, Ronald Reagan Boyhood Home Foundation, 
      Del Ray, FL................................................    58
        Prepared statement on H.R.400............................    61

Additional materials supplied:
    Text of H.R. 107.............................................     8
    Text of H.R. 400.............................................    13
    Text of H.R. 452.............................................    18
    Map of Commemorative Works Area 1 on National Mall in 
      Washington, DC.............................................    25
    List of Area 1 Memorials submitted for the record............    56


  HEARING ON H.R. 107, TO REQUIRE THAT THE SECRETARY OF THE INTERIOR 
     CONDUCT A STUDY TO IDENTIFY SITES AND RESOURCES, TO RECOMMEND 
 ALTERNATIVES FOR COMMEMORATING AND INTERPRETING THE COLD WAR, AND FOR 
OTHER PURPOSES; H.R. 400, TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO 
ESTABLISH A RONALD REAGAN BOYHOOD HOME NATIONAL HISTORIC SITE, AND FOR 
   OTHER PURPOSES; AND H.R. 452, TO AUTHORIZE THE ESTABLISHMENT OF A 
   MEMORIAL TO FORMER PRESIDENT RONALD REAGAN WITHIN THE AREA OF THE 
  DISTRICT OF COLUMBIA REFERRED TO IN THE COMMEMORATIVE WORKS ACT AS 
"AREA 1", TO PROVIDE FOR THE DESIGN AND CONSTRUCTION OF SUCH MEMORIAL, 
                         AND FOR OTHER PURPOSES

                              ----------                              


                        Thursday, March 8, 2001

                        House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:14 a.m. in 
Room 1334 Longworth House Office Building, Hon. Joel Hefley 
[Chairman of the Subcommittee] presiding.
    Mr. Hefley. This is my first time to chair this Committee 
as Chairman of the Committee. I have chaired it in my esteemed 
colleague from Utah's absence from time to time but this is my 
first time to chair it and I think I would be remiss if I did 
not point out the fact that I sat for many years on this 
Committee under the tutelage of Bruce Vento.
    Now Bruce, as you know, we lost last year. He could be very 
partisan at times. He was very liberal, very different 
philosophically from me, but if you wanted to challenge Bruce 
on a public lands issue you had better pack your lunch and come 
prepared.
    And Bruce was a gentleman. If you had a good idea and you 
were in the minority, in those days it was the practice that 
any minority good idea would be stolen by someone in the 
majority. I mean that is just the way things were done. Bruce, 
if you had a good idea and you were in the minority, he would 
cosponsor that idea with you.
    And I learned a great deal about public lands issues from 
Bruce Vento and I wonder if at the start of this hearing if we 
might just take a moment of silence in remembrance of Bruce and 
his contribution to this Congress and to the United States of 
America.
    [Pause.]

  STATEMENT OF HON. JOEL HEFLEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Good morning everyone and welcome to the hearing today. The 
Subcommittee on National Parks, Recreation and Public Lands 
will come to order.
    I would like to congratulate and welcome my colleague, the 
Delegate from the Virgin Islands, Ms. Christensen, as the new 
ranking member of the Committee and I look forward to working 
with her.
    The Subcommittee staff and I will do everything we can to 
see that this Committee is run in a fair, evenhanded manner and 
hopefully it is--I started to say bipartisan but as nonpartisan 
a way as possible. Most of the issues we deal with are not or 
should not be partisan issues in here and some of them will be 
but mostly they should not be. We will try to operate in as 
congenial a fashion as possible.
    I would also like to point out that the name of the 
Subcommittee has changed. The Subcommittee name now includes 
recreation in its title and with good reason. Chairman Hansen 
and I, along with many other members of the Committee, believe 
that for the last eight years our nation's premier park system 
and vast public lands have become more synonymous with 
unnecessary restrictions on access and a predominant bias 
toward preservation, rather than the opportunities for 
recreation and family enjoyment.
    Today, and for the foreseeable future, the Subcommittee 
will add a new focus on recreation and multiple use on our 
publics lands.
    Concerning today's hearing, the Subcommittee will consider 
three important bills: H.R. 400 sponsored by Speaker Hastert 
that would authorize the Secretary of the Interior to establish 
the Ronald Reagan Boyhood Home National Historic Site in Dixon, 
Illinois; H.R. 452 sponsored by Chairman Hansen that would 
authorize the establishment of a memorial to former President 
Ronald Reagan on the National Mall; and H.R. 107 sponsored by 
me that would require the Secretary of Interior to conduct a 
study to identify sites and resources for commemorating and 
interpreting the Cold War.
    I especially look forward to hearing the witnesses' 
comments on the proposed memorial for former President Reagan. 
I suspect that this will be an unusual hearing as the new 
Administration has come out in opposition to not only my bill 
and Chairman Hansen's bill but to Speaker Hastert's bill, as 
well.
    [The prepared statement of Speaker Hastert follows:]

      STATEMENT OF SPEAKER J. DENNIS HASTERT (IL-14), ON H.R.  400

    Chairman Hefley, Ranking Member Christensen:
    Thank you for inviting me to testify before you today in support of 
H.R. 400 which would establish the Ronald Reagan Boyhood Home National 
Historic Site in Dixon, Illinois. As you are well aware, this bill 
would allow the Secretary of the Interior to acquire the Reagan boyhood 
home from the Ronald Reagan Boyhood Home Foundation to ensure that this 
important historical structure is protected and maintained in 
perpetuity.
    At this time, I would like to take a moment to recognize Norm and 
Harriet Wymbs--without their selfless dedication--and the dedication of 
the folks of Dixon, Illinois--to preserving the legacy of Ronald 
Reagan, we would not be here today. We all owe them a debt of 
gratitude.
    Ronald Reagan occupies a special place in the heart of all of us 
from Northern Illinois. We take great pride in the record of our native 
son. As our 40th President, Ronald Reagan steered this country through 
some very difficult times. I am sure many of us here today can recall 
the atmosphere in America when he took office in 1981. We were mired in 
recession, in the midst of a cold war with the Soviet Union, and there 
was a real sense that America had seen its better days. By the time 
Reagan left office, we were in the middle of unprecedented economic 
growth, peace and freedom were on the rise in every corner of the 
globe, and we had experienced a re-birth of the American spirit. 
Reagan's belief in limited government, lower taxes, and individual 
freedom had transformed American politics and re-ignited our spirit of 
optimism.
    Many of us believe that Reagan's success as President stems in no 
small part from his upbringing in Illinois. And, while his path to 
greatness took him to many places, I believe what he learned growing up 
in Illinois never left him.
    Although born in Tampico, Illinois, Reagan has always considered 
Dixon his hometown. In Reagan's youth, as it is today, Dixon represents 
a traditional, rural, Midwestern town. In Dixon, Reagan attended 
school, played football, worked as a lifeguard, and developed the 
values that would shape his future life in politics. In fact, many of 
the images of Reagan in his youth, which we are all familiar with, were 
taken in Dixon and the surrounding area.
    The history of Ronald Reagan's life in Dixon is typical of most 
raised in small Midwestern towns. Reagan's parents, Nelle and Jack, 
instilled in him a sense of fair play, duty to others, and a respect 
for hard work. They taught young Ronald that religious or racial 
prejudice is wrong. And, Jack and Nelle were determined that their 
children would have every opportunity to excel and saw to it that the 
Reagan children obtained a college education. These are ideals we must 
share and pass on to future generations of young Americans.
    Ronald was thirteen when he entered Dixon's Northside High School. 
At Northside,``Dutch" Reagan played football and basketball, ran track, 
and acted in school plays. Athletic achievement and theatrical 
performances in school plays increased his popularity at Northside. In 
his senior year, Reagan was elected student body president. As was the 
custom of the time, yearbooks generally included mottoes written by the 
student to describe attributes or perspective outlooks. Ronald Reagan's 
reads: ``life is just one grand sweet song, so start the music'' 
Ambitious, full of life, and ready to take on the world, Reagan 
graduated from Northside High School in 1928.
    After High School, Reagan was admitted to Eureka College on a 
partial football scholarship-he lettered in football all 4 years. 
Reagan washed dishes at his fraternity house and at the girls dormitory 
on campus for spending money. Reagan worked as a lifeguard and swimming 
coach in the summer months as well. As a freshman, Ronald Reagan was 
already a proven leader-he organized and led a student strike in 
protest of the decision by college administrators to reduce the array 
of courses offered. The demonstration resulted in the resignation of 
the college president and a return to the old curriculum. While at 
Eureka he also made it possible for his older brother Neil, who was 
then working at a cement plant, to go to college by getting him a job, 
a partial scholarship, and a deal deferring his tuition until after 
graduation.
    The Depression hit Dixon, Illinois especially hard. The Reagan's 
were forced to sublet their home and live in one room. Jack and Nelle's 
next door neighbor at times cooked for them, and handed meals through 
the window. The Depression had an enormous impact on Reagan-he often 
recalled the uncertainty of the times by re-telling the story of his 
father expecting a bonus check and instead being fired on Christmas Eve 
1931. The trying times of the Great Depression touched the lives of 
every American and the Reagans were no exception. The charitable 
kindness received and practiced by the Reagan's helped them to survive 
and thrive when hard times came.
    After college, Ronald Reagan borrowed his father's beat up 
Oldsmobile and set out on a 1-day swing of nearby small-town radio 
stations. Reagan was offered five dollars and round trip bus fare to 
broadcast a University of Iowa football game. He did so well that the 
station manager gave him a raise to ten dollars for the remaining 
games. Early in 1933 World of Chiropractic radio (WOC), a subsidiary of 
WHO radio in Des Moines, hired Dutch as a full time announcer for $100 
a month--a lot of money at the time. He had enough money to help his 
parents and send $10 a month spending money to his brother Nell while 
he finished college at Eureka. At first, Reagan's oratory was neither 
polished, nor very professional but he learned to rehearse and sound 
spontaneous. As we all know, Reagan's weakness became one of his 
trademark virtues. In the future, Reagan's speeches gave hope to 
millions around the world who suffered under the oppression of 
Communism.
    From his job at a small radio station in Iowa, Reagan went on to 
serve in the Army during World War II, become a movie star, president 
of the Screen Actors Guild, a traveling spokesman for General Electric, 
Governor of the State of California, and, ultimately, President of the 
United States. Wherever he went, however, lie carried the lessons lie 
learned growing up in Dixon, Illinois, with him.
    I believe that, as a Nation, we must preserve and protect places of 
historical interest for future generations. The affection we, as a 
Nation, have for the 40``' President of the United States is 
demonstrated by the fact that so many important things now bear his 
name-from the airport which serves the Nation's Capital and a Federal 
building, to the Navy's newest aircraft carrier.
    In my mind, however, there is another important piece of Reagan's 
life that deserves preservation. I believe that Reagan's life in Dixon, 
Illinois, is critical to understanding the man and the presidency. But 
don't take my word for it. Take the word of the tens of thousands of 
visitors who tour his boyhood home every year.
    Mr. Chairman, I am proud to represent President Reagan's boyhood 
home of Dixon, Illinois, in Congress and I am proud to sponsor 
legislation that will ensure that the opportunity to experience the 
place where he was raised will be available to all Americans for years 
to come. I look forward to working with you, and Ranking Member 
Christensen, to make this a reality as soon as possible.
                                 ______
                                 
    Mr. Hefley. I want to thank our panel of witnesses, 
especially Speaker Hastert and Chairman Hansen, for being here 
today to testify on these bills.
    [The prepared statement of Mr. Hefley follows:]

   STATEMENT OF HON. JOEL HEFLEY, CHAIRMAN, SUBCOMMITTEE ON NATIONAL 
                  PARKS, RECREATION, AND PUBLIC LANDS

    Good morning everyone and welcome to the hearing today. The 
Subcommittee on National Parks, Recreation, and Public Lands will come 
to order. I would like to congratulate and welcome my colleague, the 
Delegate from the Virgin Islands, Ms. Christensen, as the new Ranking 
Member of the Subcommittee. The Subcommittee staff and I look forward 
to working with all of you in what I hope will be a very productive, 
bipartisan, and congenial session for this Subcommittee.
    I would also like to point out that the name of the Subcommittee 
has changed. The Subcommittee name now includes Recreation in its title 
and with good reason. Chairman Hansen and I along with many other 
Members of the Committee believe that for the last 8 years our Nation's 
premier park system and vast public lands have become more synonymous 
with unnecessary restrictions on access and a predominate bias toward 
preservation, rather than with opportunities for recreation and family 
enjoyment. Today, and for the foreseeable future, the Subcommittee will 
add a new focus on recreation and multiple use on our public lands.
    Concerning today's hearing, the Subcommittee will consider three 
important bills: H.R. 400, sponsored by Speaker Hastert, that would 
authorize the Secretary of Interior to establish the Ronald Reagan 
Boyhood Home National Historic Site in Dixon, Illinois; H.R. 452, 
sponsored by Chairman Hansen, that would authorize the establishment of 
a memorial to former President Reagan on the National Mall; and H.R. 
107, sponsored by me, that would require the Secretary of Interior to 
conduct a study to identify sites and resources for commemorating and 
interpreting the cold war. I especially look forward to hearing the 
witnesses comments on the proposed memorial for former President Ronald 
Reagan. [I suspect this will be an unusual hearing as the new 
Administration has come out in opposition to not only my bill and 
Chairman Hansen's bill, but Speaker Hastert's as well.]
    I want to thank our panel of witnesses, especially Speaker Hastert 
and Chairman Hansen, for being here today to testify on these bills. I 
now turn the time over to the Ranking Member, Ms. Christensen.
                                 ______
                                 
    Mr. Hefley. I wonder if the gentlelady, Mrs. Christensen, 
would suspend her comments just a moment in deference to 
Chairman Hansen, who is going to have to leave and would like 
to give his comments on his bill. I would ask unanimous consent 
that we do that, get that out of the way before we go vote. 
Would that be all right?
    Mrs. Christensen. Fine with me. Thank you.
    Mr. Hefley. All right, Chairman Hansen, we turn it over to 
you.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. Thank you, Mr. Chairman, and I thank the 
ranking member for her courtesy. I have another meeting to get 
to but if I could just quickly give an opening statement on 
H.R. 452, which establishes a presidential memorial for one of 
the most influential men of the 20th century.
    As one of our most notable Presidents, Ronald Wilson Reagan 
initiated policies, such as peace through strength that helped 
win the Cold War, contained the economic stagnation of the 
early '80's by cutting taxes and increasing funding for the 
national defense and helped to restore the United States as a 
leader on the world front. In doing so, President Reagan 
restored America's faith in itself and our system of 
government. In short, he restored pride in our nation.
    Specifically, this bill creates and then directs the Ronald 
Reagan Memorial Commission to cooperate with the Secretary of 
the Interior and the National Capital Memorial Commission to 
identify and then recommend to Congress an appropriate site for 
the construction of a memorial honoring the former President 
Ronald Reagan. The bill specifies that the memorial site be 
situated in Area 1 as identified in the Commemorative Works Act 
and that it be placed between the Lincoln Memorial and the U.S. 
Capitol Building. The Ronald Reagan Memorial Commission would 
also select the memorial design and raise the necessary funds 
to complete the memorial.
    Furthermore, the commission will have the responsibility to 
raise the necessary funds from the private sector for the 
design, construction and maintenance of the memorial and to 
issue a report to Congress and the President on its activities 
every 6 months from its first meeting, along with a final 
report on its findings.
    Mr. Chairman, at this time I want to address some of the 
criticism regarding my legislation. First, the 25-year waiting 
period established by the CWA is more of an arbitrary time 
period than representing a particular formula. Quite frankly, 
it could be five or 50 years. There really is no right time 
period. I believe that Mr. Reagan is a very special case. 
Because of the nature of his battle with Alzheimer's disease, 
sadly it means Mr. Reagan's public life is and has been coming 
to an end since he left office in 1989.
    Secondly, the National Mall has come to represent so much 
in terms of who we are as a people. It represents our 
struggles, our achievements and our appreciation for those 
Americans who led our country in time of crisis. I find it hard 
to believe that a memorial to President Reagan so negatively 
impacts the integrity of the beauty of the National Mall.
    According to the National Park Service, there are 1,791 
acres in Area 1. This includes 608 acres covered by the Potomac 
River and the Tidal Basin, 344 acres occupied by Federal 
buildings and museums and 315 acres occupied by existing or 
planned memorials. That leaves approximately 525 acres of open 
space. I think if everyone would keep their perspective on this 
issue another memorial is certainly not going to destroy the 
vistas of the Mall. In fact, I believe most Americans walking 
the National Mall to better understand our history would not 
object to a memorial honoring one of the most influential and 
historical figures of the 20th century.
    Mr. Chairman, H.R. 452 is similar to the bill that former 
Resource Chairman Don Young introduced last Congress. If you 
recall, that bill was favorably reported by the Resource 
Committee.
    Mr. Chairman, this bill honors a great American who 
deserves a national tribute in a place of prominence and 
recognition on the National Mall alongside the other great 
leaders of our nation's history.
    And with that, thank you so very much for allowing me to do 
that.
    Mr. Hefley. Thank you, Chairman Hansen. Rest assured this 
Committee will take care of your bill in due time.
    Mr. Hansen. That is what I am worried about.
    [The prepared statement of Chairman Hansen follows:]

STATEMENT OF HON. JAMES V. HANSEN, CHAIRMAN, COMMITTEE ON RESOURCES, ON 
                                H.R. 452

    Thank you Mr. Chairman.
    H.R. 452 establishes a Presidential memorial for one of the most 
influential men of the 20th Century. As one of our most notable 
Presidents, Ronald Wilson Reagan initiated policies such as peace 
through strength that helped win the cold war, tamed the economic 
stagnation of the early 1980's by cutting taxes and increasing funding 
for the national defense, and helped to restore the United States as 
leader on the world front. In doing so, President Reagan restored 
America's faith in itself and our system of government. In short, he 
restored pride to our Nation.
    Specifically, this bill creates and then directs the Ronald Reagan 
Memorial Commission to cooperate with the Secretary of the Interior and 
the National Capitol Memorial Commission to identify, and then 
recommend to Congress, an appropriate site for the construction of a 
memorial honoring former President Ronald Reagan. The bill specifies 
that the memorial site be situated in Area 1'' as identified in the 
Commemorative Works Act, and that it be placed between the Lincoln 
Memorial and the U.S. Capitol Building. The Ronald Reagan Memorial 
Commission would also select the memorial design and raise the 
necessary funds to complete the memorial.
    Furthermore, the Commission will have the responsibility to raise 
the necessary funds from the private sector for the design, 
construction, and maintenance of the memorial, and to issue a report to 
Congress and the President on its activities every 6 months from its 
first meeting, along with a final report on its findings.
    Mr. Chairman, at this time, I wanted to address some of the 
criticism regarding my legislation. First, the 25 year waiting period 
established by the CWA is more of an arbitrary time period than 
representing a particular formula. Quite frankly, it could be five or 
50 years. There really is no right time period. I believe that Mr. 
Reagan's is a very special case. Because of the nature of his battle 
with Alzheimer's disease, sadly it means Mr. Reagan's public life is, 
and has been coming to an end since he left office in 1989.
    Second, the National Mall has come to represent so much in terms of 
who we are as a people. It represents our struggles, our achievements, 
and our appreciation for those American's who led our country in times 
of crisis. I find it hard to believe that a memorial to President 
Reagan will so negatively impact the integrity or the beauty of the 
National Mall.
    According to the National Park Service, there are 1,791 acres in 
Area 1. This includes 608 acres covered by the Potomac River and the 
Tidal Basin, 344 acres occupied by Federal buildings and museums, and 
315 acres occupied by existing or planned memorials. That leaves 
approximately 524 acres of open space. I think if everyone would keep 
their perspective on this issue, another memorial is certainly not 
going to destroy the vistas of the Mall. In fact, I believe most 
Americans walking the National Mall to better understand our history 
would not object to a memorial honoring one of the most influential and 
historical figures of the 20th Century.
    Mr. Chairman, H.R. 452 is similar to the bill that former Resources 
Chairman Don Young introduced last Congress. If you recall, that bill 
was favorably reported by the Resources Committee.
    Mr. Chairman, this bill honors a great American who deserves a 
national tribute in a place of prominence and recognition on the 
National Mall along side the other great leaders in our Nation's 
history.
                                 ______
                                 
    Mr. Hefley. The Committee stands in recess while we vote 
and we will be back as quickly as we can and we will pick up 
with Mrs. Christensen's statement.
    [Recess.]
    Mr. Hefley. The Committee will come back to order and we 
will go now to Mrs. Christensen.

  STATEMENT OF HON. DONNA CHRISTENSEN, A DELEGATE IN CONGRESS 
                    FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. It is a pleasure 
to be here today at the first meeting of the renamed National 
Parks, Recreation and Public Lands Subcommittee of this 
Congress.
    On behalf of the Democratic members of the Subcommittee, 
let me congratulate you on your new role as Subcommittee 
Chairman and we look forward to working with you to address the 
many issues that will come before this Subcommittee during the 
107th Congress.
    Today, whether by accident or design, it appears there is a 
theme to our hearing. Former President Reagan played a 
significant role in the latter stages of the Cold War and all 
three measures we will consider today deal with this theme.
    Mrs. Christensen. Our first bill, H.R. 107, of which you 
are the sponsor, Mr. Chairman, directs the Secretary of the 
Interior to conduct a study regarding the sites and resources 
associated with the Cold War. The tension between the United 
States and the former Soviet Union that marked the Cold War era 
had a significant impact on U.S. policy both at home and 
abroad. As such it is an important element of our recent 
history.
    [The text of H.R. 107 follows:]
        
        

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        
        

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        
        

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        
        

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mrs. Christensen. Our second bill today, H.R. 400, would 
require the Secretary to purchase a facility in Speaker 
Hastert's district in Dixon, Illinois known as the Ronald 
Reagan Boyhood Home complex and designated as a new national 
historic site. Apparently former President Reagan lived in this 
home for a brief period in the mid-1920's. The complex gained 
some recent attention with an Associated Press story 
identifying the home as a site of a life-sized portrait of the 
former President done in jelly beans.
    Certainly any site which plays a significant role in the 
life of a U.S. President and which retains historically 
significant resources relating to that period is deserving of 
consideration for addition to our National Park System. In this 
instance, however, it is unclear what role this property played 
in former President Reagan's life; nor is much known about its 
current condition and the condition of the resources located at 
this site. It is our understanding that no resource study of 
the home has been completed, as would normally be the case and 
the bill fails to authorize one.
    Thanks to legislation you authored and we in the minority 
supported, Mr. Chairman, current law directs that a resource 
study should be done before any new unit is added to the 
National Park System. In this instance such a study would 
provide critical information regarding this facility. We look 
forward to learning more about this particular site from the 
witnesses before us this morning.
    [ The text of H.R. 400 follows:]
        
        

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        
        

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        
        

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        
        

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mrs. Christensen. Our third bill, H.R. 452 introduced by 
Chairman Hansen, would authorize a memorial to former President 
Reagan on the National Mall here in Washington, D.C. President 
Reagan's term in office was significant and a significant 
period in American history and there are many who believe that 
he deserves a memorial on our National Mall. As the Committee 
is well aware, however, H.R. 452 violates several critical 
provisions of the Commemorative Works Act or CWA authored by 
our former colleague Bruce Vento and others and signed into law 
by President Reagan himself. In our view, the CWA framework, 
including the 25-year waiting period, has served the Mall, the 
public and those memorialized on the Mall very well. The fact 
that H.R. 452 would exempt this proposed memorial from the 
sound public policy requirements which apply to all other 
proposed additions to our National Mall is troubling.
    Furthermore, we are puzzled by the apparent haste to place 
this memorial on the Mall, given that significant honors have 
already been bestowed on our 40th President. The second largest 
Federal building in the country, as well as National Airport 
are named in his honor. In addition, just this past Sunday the 
$4 billion aircraft carrier RONALD REAGAN was christened, the 
first carrier ever named for a living President. There is 
little chance that the American public will forget Ronald 
Reagan even if the statutory waiting period for a memorial to 
him on the Mall is respected.
    [The text of H.R. 452 follows:]
        
        

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        
        

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        
        

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        
        

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        
        

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        
        

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        
        

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Map of Commemorative Works Area 1 submitted for the record 
follows:]

[GRAPHIC] [TIFF OMITTED] T1123.001

    Mrs. Christensen. Mr. Chairman, we join you in welcoming 
our witnesses to the hearing. We look forward to their input on 
the measures before the Subcommittee today and it is a special 
pleasure to welcome our colleague from the District, 
Congresswoman Eleanor Holmes Norton, to the Subcommittee this 
morning.
    Mr. Hefley. Thank you.
    Any other opening statements? None on this side?
    Mr. Duncan. I have no opening statement, Mr. Chairman. I 
just want to congratulate you and Mrs. Christensen on your new 
positions. I also say that I agree with your philosophy as 
expressed in your opening statement and I know you will provide 
great leadership for this Subcommittee.
    Mr. Hefley. Thank you very much.
    Mr. Rahall?

STATEMENT OF HON. NICK J. RAHALL, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you, Mr. Chairman. I likewise 
congratulate you as the new Chairman and Mrs. Christensen as 
the new ranking member of the Subcommittee and associate 
myself, Mr. Chairman, with your words in commemoration of our 
late colleague, Bruce Vento, made during the beginning of 
today's hearing.
    There are a number of concerns already expressed by the 
ranking member, that I have as well, with the pending 
legislation, H.R. 452. To be perfectly clear, these concerns 
have nothing to do with Ronald Reagan. For that matter, this 
bill could be about putting a monument on the Mall to one of 
America's most loved characters, Mickey Mouse. Or it could be 
about a monument to Bill Clinton or any other individual that 
does not meet the statutory requirements; my concerns would be 
the same.
    The Mall is indeed America's front yard. It is a very 
special place to Americans and for that reason there are 
stringent procedures governing whether additional monuments 
will be located in the area, there is a vetting process, if you 
will, that has to be followed before such monuments are put on 
the Mall. These procedures to which I refer and which have 
already been referred to by others on the Committee, are 
embodied in the Commemorative Works Act of 1986, so ably and 
effectively ushered through the Congress by our late colleague 
Bruce Vento and signed into law, as it so happens, signed into 
law by President Ronald Reagan.
    So I guess I feel a sense of bemusement today, perhaps 
amusement. The pending legislation seeks to run roughshod over 
this important statute to achieve the goal of forcing a 
memorial to Ronald Reagan onto the Mall. For instance, the 1986 
law prohibits memorials on the Mall until after the 25th 
anniversary of the honoree's death. The purpose of that 
provision is to allow for enough time to allow a person to be 
judged within the proper historical perspective, not the 
emotions of the moment, and that simply is not what is being 
done here. On the other hand, now that I think about it, it 
perhaps is applicable as there are those who hold that 
President Reagan's policies in many respects were fatal to the 
country.
    But simply put, a memorial to one of our greatest 
Presidents, FDR, for example, was only recently constructed on 
the Mall. Veterans of World War II have had to wait 55 years 
and we are only now moving forward with a memorial to their 
great achievements. So why should the process be any different 
for Ronald Reagan, regardless of how one views his 
contributions to our nation? There is a vetting process in 
place. Our veterans have had to go through that process before 
they can have their monument on the Mall. The FDR Memorial went 
through that process and now why throw that process out the 
window?
    Another bill that is the subject of today's hearing would 
establish a Ronald Reagan Boyhood Home. Now that is certainly 
less objectionable. Certainly Congress has the right to 
determine whether it is in the public interest to designate 
national historic sites and in this regard there are many such 
designations relating to former Presidents, such as the Truman 
National Historic Site in Independence, Missouri or the 
Garfield National Historic Park in Mentor, Ohio.
    So I would urge the supporters of the Reagan memorial bill 
to perhaps do some self-reflection and find some other means of 
displaying their additional, and well placed admiration for 
this former President. After all, as the ranking member has 
already said, we do have an airport, and we have a Federal 
building named after Ronald Reagan here in the nation's 
capital. And certainly the Mall is no place with which to play 
politics. Thank you, Mr. Chairman.
    Mr. Hefley. Thank you, Mr. Rahall.
    Mr. Kildee?

  STATEMENT OF HON. DALE KILDEE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Kildee. Just briefly, I look forward to working with 
you, Mr. Chairman. You and I have been friends since you first 
arrived in Congress and you have never needed to attend a 
conference on civility; you came here with civility and I look 
forward to working with you.
    I want to associate myself with your remarks on my 
classmate and seatmate, Bruce Vento.
    Mr. Hefley. Thank you very much. Let us proceed with our 
first panel. I do not believe that the Speaker is going to be 
able to get back over here. There are some activities occurring 
on the Floor we did not expect. But we do have our delegate 
from Washington, D.C., the Honorable Eleanor Holmes Norton. If 
you would join us? Welcome this morning and we will turn the 
time over to you.

STATEMENT OF HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS 
                 FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. I appreciate the opportunity to make a few 
comments on the proposed memorial. I want to be clear that I do 
not appear this morning as a representative of my party. I am 
here as a fourth generation Washingtonian and as the member who 
represents the people of the nation's capital who for 200 years 
have been the keepers of the history of this city and the 
guardians of its precious monuments. Official Washington comes 
and goes and the framers meant there to be permanent residents 
here so that the continuity of history would not be lost.
    We particularly value the L'Enfant plan and all that the 
Congress and the National Capital Planning Commission have done 
to respect that plan. That plan assures that the nation's 
capital will remain what the founders intended and that is a 
planned city, making the city one of the great capitals in the 
world and one of the few truly planned cities.
    I want also to be clear that I have no quarrel and indeed 
very much appreciate the desire of Chairman Hansen to have a 
memorial for a President that is much beloved by many Americans 
on the Mall and in this city. Indeed Representative Hansen and 
I have worked together on a number of local projects affecting 
the capital city and he has always shown great respect for me 
and for the city and has always worked very amicably with me. I 
have a real fondness for the Chairman of this Committee.
    I do not come simply to ask you to respect the 
Commemorative Works Act. I also ask you to allow me to work 
with you to find an alternative site and to remind you that the 
25-year waiting period applies only to the Mall and that there 
are many, many sites that are off the Mall that might be even 
more attractive.
    There are a number of reasons why the Commemorative Works 
Act require special treatment for the Mall. Before the 25-year 
waiting period was enacted the Mall was in danger of being 
quite overwhelmed with memorials. As we speak, this small 
centrally located patch of land would already be filled with 
memorials if the rules were not observed.
    The problem continues such that the National Capital 
Planning Commission has submitted a bill for a no-build area on 
the Mall itself and the reason for that is that while prior 
generations were restrained, had a special feeling for the Mall 
and were restrained, almost self-restrained, in coming forward 
to ask for memorials, our generation is gobbling up all the 
space on the Mall, a space meant for eternity. In one 
generation the Mall has become no longer a green space but 
already a series of memorials.
    The Senate passed the bill for a no-build area reserving 
space so that if there is a great American 200 years from now 
you will not find what you are now finding in some 
authoritarian countries. They have to tear down memorials in 
order to build memorials because of overbuilding. We are trying 
to avoid that.
    I have no reason to doubt that a memorial to President 
Reagan would not be prejudiced if the proponents waited out the 
25-year time frame and I want to submit to you a compelling 
precedent.
    In 1987 proponents came forward to ask for a memorial for 
one of the great martyrs of American history, Dr. Martin Luther 
King, Jr. The Democrats controlled the House then and the 
Senate and during all the 8 years afterwards that proponents of 
a King memorial came forward with great emotion to ask that an 
exception be made for this slain hero of American history but 
though the House was controlled by the Democrats, at no time 
was this bill passed until the 25th year had been reached.
    I want to serve notice to all in my party who see the House 
now almost controlled by Democrats and could become controlled 
by Democrats, who see 50/50 in the Senate and who see this 
precedent, I want to serve notice that I will lead the fight 
against any from my own party who say that if the Republicans 
can come forward, there's no reason why the Democrats should 
not.
    The Mall must have our respect. It must have the respect of 
history and for future generations. What will they think of us 
when they look around and say that within a period of 30 years 
those folks used it all up. They thought their wars and their 
Presidents and their history were all there would ever be to 
American history.
    This memorial is proposed out of love and out of respect 
for former President Reagan. He was one of the most loved 
Presidents and is already among the most memorialized. We 
should be careful to respect Ronald Reagan's considerable 
legacy by demonstrating confidence in the durability of his 
contributions, that they deserve respect for the rule of law 
that he showed and modesty, one of his notable characteristics, 
suggesting that like our greatest Presidents, Ronald Reagan 
would want to wait his time. Thank you very much, Mr. Chairman.
    [The prepared statement of Ms. Norton follows:]

    [GRAPHIC] [TIFF OMITTED] T1123.019
    
    [GRAPHIC] [TIFF OMITTED] T1123.020
    
    [GRAPHIC] [TIFF OMITTED] T1123.002
    
    [GRAPHIC] [TIFF OMITTED] T1123.003
    
    [GRAPHIC] [TIFF OMITTED] T1123.004
    
    Mr. Hefley. Ms. Norton, I think this Committee should give 
special deference to people whose district the Federal 
Government is trying to place something and so we very much 
appreciate your comments today.
    I think you might in the future accompany your comments 
with simply a picture of the Gettysburg battlefield, which has 
been overmemorialized until the first time I went there I was 
very disappointed to see how many memorials were there. So I 
think your argument that we need to be very, very careful about 
how many memorials we have on the Mall is well placed.
    I have no questions. Mrs. Christensen?
    Mrs. Christensen. I have no questions, either. I think the 
testimony was not only very sensitive and insightful, as usual; 
it was very complete. No questions. Thanks.
    Mr. Hefley. Does anyone have questions?
    Thank you very much.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Hefley. Let us go to panel number two: Mr. Richard 
Ring, associate director of Park Operations and Education, the 
National Park Service; Ms. Carolyn Brody, member of the 
Commission of Fine Arts for Washington; and Mr. Jimmy Dishner, 
Deputy Assistant Secretary of the Air Force for Installations.
    Jimmy, I have to say you and I have faced each other across 
these ways many times but not in this setting, so we are 
delighted to have you here today.
    We will be on the 5-minute rule. Your statements without 
objection will be placed in their entirety in the record but if 
you could hold your comments to five minutes and then we will 
have questions.
    So do you have an order you would like to go in? If not, we 
will start with you.

    STATEMENT OF RICHARD G. RING, ASSOCIATE DIRECTOR, PARK 
OPERATIONS AND EDUCATION, NATIONAL PARK SERVICE, DEPARTMENT OF 
 INTERIOR, WASHINGTON, D.C.; ACCOMPANIED BY SALLY BLUMENTHAL, 
       DEPUTY REGIONAL DIRECTOR, NATIONAL CAPITAL REGION

    Mr. Ring. Mr. Chairman, my name is Dick Ring and I am the 
Associate Director for Operations and Education of the National 
Park Service. I am pleased to appear before you for the first 
time. This is my first hearing in this position. I spent the 
last eight and a half years as the Superintendent of Everglades 
National Park working on the ecosystem restoration efforts 
there.
    I am here to speak to you on all three bills this morning. 
I appreciate the opportunity to present the Department of the 
Interior's position. I will summarize the testimony on each of 
the bills.
    On H.R. 107, while we believe that it is wholly appropriate 
for the National Park Service to undertake a study of this 
nature, the Administration recommends that the Committee defer 
action on H.R. 107 until they have been able to begin making 
progress on the President's initiative to eliminate the 
National Park Service's deferred maintenance backlog within 
five years. In most cases we would be seeking a temporary 
moratorium on new park unit designations or authorization of 
new studies so that we can focus on our existing resources, on 
taking care of what we now own.
    We also want to make sure that when completing previously 
authorized studies, we closely examine the costs of acquiring, 
restoring, and operating a new unit of the National Park 
System.
    With regard to H.R. 400, which would authorize the 
Secretary of Interior to establish the Ronald Reagan Boyhood 
Home and National Historic Site in Dixon, Illinois, in 1998 the 
Congress passed Public Law 105-391, the National Park Omnibus 
Management Act, which requires congressional authorization of 
areas to be studied for potential new units of the National 
Park System. The law also designates the criteria to be 
followed by the National Park Service in determining whether to 
recommend an area as a unit of the National Park System.
    We recognize the importance of the boyhood home of 
President Ronald Reagan and therefore appreciate the goal of 
H.R. 400. We suggest however that the Committee ensure that the 
intent of Congress as expressed in Public Law 105-391 is 
carried out by amending the bill to authorize a study of the 
site to determine whether it conforms with the criteria of that 
law. Such a review will ensure that the continued expansion of 
the National Park System does not increase the backlog of 
deferred maintenance needs, among other things. We would be 
pleased to work with the Committee on further consideration of 
the bill.
    And finally, Mr. Chairman, I would like to speak to H.R. 
452, to authorize the establishment of a memorial for former 
President Ronald Reagan within the area referred to as 
Commemorative Works Area 1 and provide for the design and 
construction of the memorial.
    While the department wholeheartedly supports recognizing 
former President Reagan's significant contributions to the 
history of the United States, we believe that it is important 
that the establishment of a memorial follow the well 
established process for authorizing memorials that is contained 
in the Commemorative Works Act of 1986. Following this process 
will provide the best opportunity for soliciting public input 
and resolving any concerns regarding the location or nature of 
the memorial. We therefore recommend that Congress defer action 
on H.R. 452 until we have an opportunity to examine options 
that are consistent with the Commemorative Works Act.
    That concludes the summary of my statement on the three 
bills and I would be pleased to take any questions. I would 
also like to introduce Sally Blumenthal, who is the Deputy 
Regional Director of the National Capital Region for Land Use 
and Land Use Coordination and ask her to join me at the table 
to assist with any questions.
    [The prepared statement of Mr. Ring on H.R. 107 follows:]

                STATEMENT OF RICHARD G. RING ON H.R. 107

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 107. This bill would require 
that the Secretary of the Interior conduct a study to identify sites 
and resources associated with the cold war and to recommend 
alternatives for commemorating and interpreting that period of our 
nation's history.
    While we believe that it is wholly appropriate for the National 
Park Service to undertake a study of this nature, the Administration 
recommends that the Committee defer action on H.R. 107 until we are 
able to begin making progress on the President's Initiative to 
eliminate the National Park Service (NPS) deferred maintenance backlog 
within five years. We are generally seeking a temporary moratorium on 
new park unit designations or authorization of new studies so that we 
can focus existing resources on taking care of what we now own. We also 
want to make sure that, when completing previously authorized studies, 
we closely examine the costs of acquiring, restoring, and operating a 
potential new park unit.
    H.R. 107 would require the Secretary of the Interior to prepare a 
National Historic Landmark theme study to identify sites and resources 
in the United States that are significant to the cold war. The bill 
specifically provides that the study consider the inventory of cold war 
resources that has been compiled by the Department of Defense and other 
historical studies and research on various types of military resources. 
H.R. 107 requires the study to include recommendations for 
commemorating these resources and for establishing cooperative 
arrangements with other entities.
    In addition to authorizing the theme study, H.R. 107 would require 
the Secretary to prepare and publish an interpretive handbook on the 
cold war and to disseminate information gathered through the study in 
other ways. The bill would also require the Secretary to establish a 
cold war Advisory Committee to consult on the study. H.R. 107 
authorizes appropriations of $200,000 for these activities.
    The National Historic Landmarks program was established by the Act 
of August 21, 1935, commonly known as the Historic Sites Act (16 U.S.C. 
461 et. seq.) and is implemented according to 36 CFR Part 65. The 
program's mission is to identify those places that best illustrate the 
themes, events, or persons that are nationally significant to the 
history of the United States and that retain a high degree of 
integrity. Potential national historic landmarks are often identified 
through "theme studies" such as the one that would be authorized by 
H.R. 107.
    For example, last year the National Park Service completed and 
transmitted to Congress a National Historic Landmark theme study on the 
history of racial desegregation of public schools, which was authorized 
by Public Law 105-356, the Act that established the Little Rock Central 
High School National Historic Site. Federal, state, and local officials 
across the country are now using this study to identify and evaluate 
the significance of numerous properties. So far, properties in nine 
states and the District of Columbia have been recommended for 
consideration as national historic landmarks. Currently the National 
Park Service is conducting several other theme studies, including one 
related to the history of the labor movement, another on the earliest 
inhabitants of North America, and another on sites associated with 
Japanese Americans.
    At the moment, the history of the cold war has some presence in the 
National Park System and on the two lists of historic sites maintained 
by the National Park Service. The National Park System includes one 
unit related to the cold war, the Minuteman Missile National Historic 
Site in South Dakota, which Congress established two years ago to 
preserve and interpret the role of Intercontinental Ballistic Missiles 
in our nation's defense system.
    Out of 2,329 designated national historic landmarks, five recognize 
civilian or military aspects of cold war history, and out of more than 
72,000 listings on the National Register of Historic Places, 17 
(including the five landmarks) are related to the cold war. The 
relatively small number of recognized sites is due in large part to the 
fact that the cold war has only recently been viewed as history. With 
or without a theme study, these numbers would likely increase over 
time, and the Department of Defense could take steps on its own to 
identify these sites.
    In addition to our general concern that a new study is not 
appropriate at this time, we have a technical concern with Section 3, 
which provides for the establishment of an advisory committee to 
consult with on the study. In our view, such a committee is unnecessary 
and, because of the legal requirements of the Federal Advisory 
Committee Act (5 U.S.C. App.), would add greatly to the cost of a study 
and time required to complete it.
    National Historic Landmark program regulations already require 
consultation with Federal, state, and local governments; national and 
statewide associations; and a variety of other interested parties. 
Through partnering with a national historical organization, using a 
peer-review process, and consulting with appropriate subject experts as 
well as the general public, the National Park Service would ensure that 
the broadest historical perspectives are represented in any study it 
undertakes.
    In addition, we have been informed by the Department of Justice 
that the provisions of the bill that would require the Secretary of the 
Interior to make recommendations to Congress concerning Federal 
protection for cold war sites appear to violate the Recommendations 
Clause of the Constitution, which reserves to the President the power 
to decide whether it is necessary or expedient for the executive branch 
to make legislative policy recommendations to the Congress. At such 
time when further consideration of the bill is appropriate, the 
Administration will be pleased to provide language to remedy the bill's 
constitutional defects.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.
                                 ______
                                 
    [The prepared statement of Mr. Ring on H.R.400 follows:]

                STATEMENT OF RICHARD G. RING ON H.R. 400

    Mr. Chairman, thank you for the opportunity to testify on H.R. 400, 
a bill to authorize the Secretary to establish the Ronald Reagan 
Boyhood Home National Historic Site in Dixon, Illinois. The Department 
supports the effort to honor the boyhood home of former President 
Reagan.
    H.R. 400 would authorize the Secretary of the Interior to establish 
the Ronald Reagan Boyhood Home National Historic Site in Dixon, 
Illinois. It also would require the Secretary to enter into a 
cooperative agreement with the Ronald Reagan Boyhood Home Foundation 
for the purpose of operating, maintaining, and using the Historic Site.
    In 1998, Congress passed Public Law 105-391, the National Parks 
Omnibus Management Act of 1998, which requires congressional 
authorization of areas to be studied for potential new units of the 
National Park System. The law also designates the criteria to be 
followed by the National Park Service in determining whether to 
recommend an area as a unit of the National Park System. We recognize 
the importance of the boyhood home of President Ronald Reagan and 
therefore appreciate the goals of H.R. 400. We suggest, however, that 
the Committee ensure that the intent of Congress, as expressed in 
Public Law 105-391, is carried out by amending the bill to authorize a 
study of the site to determine whether it conforms to the criteria of 
Public Law 105-391. Such a review will ensure that the continued 
expansion of the National Park System does not increase the backlog of 
deferred maintenance needs.
    With respect to historical sites, the studies do not only look at 
whether the event or person associated with the site was historically 
significant. They also look at the integrity of the buildings, and 
other factors, such as whether there are other sites that might more 
appropriately tell the story associated with a particular site.
    The National Park system consists of many previous residences of 
former Presidents. However, there are also many residences of former 
Presidents that are not part of the system. A study would look at 
whether the Federal Government is the most appropriate entity to manage 
the site. Some sites are managed by other entities, such as state 
governments and private foundations. Conducting a professional study 
also allows Congress to be sure it is protecting an area that meets the 
criteria of the National Park System.
    A study also would look at the management structure contemplated by 
the bill. As written, the bill calls for the site to be managed through 
a partnership between the Reagan Boyhood Home Foundation and the 
National Park Service. If this is the best management structure for the 
park unit, it should be endorsed by a study.
    Finally, a study will enable the Park Service and the Congress to 
identify the costs in acquiring, restoring, and operating a potential 
site. Such a review is important if we are to gain control of the 
deferred maintenance backlog and eliminate it within five years, as the 
President's Initiative seeks to do. In most cases, we are seeking a 
temporary moratorium on new park unit designations or new studies on 
potential designations, so that we can focus existing resources on 
taking care of what we now own. In this case, however, we recognize the 
potential significance of this site and would support an authorization 
of a new study.
    We would be pleased to work with the committee on further 
consideration of this bill. This concludes my testimony. I would be 
happy to answer any of your questions.
                                 <plus-minus>
                                 ______
                                 
    [The prepared statement of Mr. Ring on H.R. 452 follows:]

                STATEMENT OF RICHARD G. RING ON H.R. 452

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 452, to authorize the 
establishment of a memorial to former President Ronald Reagan within 
the area referred to in the Commemorative Works Act as Area I and to 
provide for the design and construction of the memorial.
    While the Department wholeheartedly supports recognizing former 
President Ronald Reagan's significant contributions to the history of 
the United States, we believe that it is important that the 
establishment of a memorial follow the well-established process for 
authorizing memorials that is contained in the Commemorative Works Act 
of 1986. Following this process will provide the best opportunity for 
soliciting public input and resolving any concerns regarding the 
location or nature of the memorial. We therefore recommend that 
Congress defer action on H.R. 452 until we have an opportunity to 
examine options that are consistent with the Commemorative Works Act.
    H.R. 452 would establish the Ronald Reagan Memorial Commission to 
plan for a memorial to former President Reagan on the Mall, somewhere 
between the Capitol and the Lincoln Memorial. The Commission, which 
would consist of the Chairman of the National Capital Memorial 
Commission, a member appointed by the Speaker of the House, and a 
member appointed by the Majority Leader of the Senate, would receive 
assistance from the National Capital Memorial Commission and the 
Secretary of the Interior, including staff from the Department who 
would be detailed to the Commission.
    The Commission would be required to recommend to Congress a 
location and final design for the memorial no later than February 6, 
2003. This panel would also be responsible for raising funds from the 
private sector for the design, construction and maintenance of the 
memorial. Three sections of the Commemorative Works Act would be waived 
by this bill.
    The Commemorative Works Act of 1986, which guides the process for 
establishing monuments in the Nation's Capital, was enacted during the 
Reagan Administration following what some characterized as monumental 
chaos over the Vietnam Veterans Memorial, which was dedicated in 1982. 
At that time, Congress was frustrated by the lack of guidelines for the 
subject matter, siting, and design of memorials, and the lack of a 
public process. Congress and the Department worked together to study 
the process, delineate responsibilities and define procedures. Through 
passage of the Commemorative Works Act, Congress established the 
process that, today, ensures memorials in the Capital are erected on 
the most appropriate sites in the Federal City and are of a caliber in 
design that is worthy of their historically significant subjects.
    The Commemorative Works Act envisions a two-step legislative 
process for establishing a memorial in Area I: first, enactment of 
legislation that authorizes the Secretary of the Interior to plan for a 
memorial without naming a specific site; and if, through that process, 
the Secretary recommends siting the memorial in Area I, enactment of a 
second piece of legislation that authorizes construction of the 
memorial. The idea of the two-step process was to protect the Mall the 
heart of the commemorative landscape of the Nation's Capital by 
ensuring that a decision to construct a new memorial there would not be 
made until the Executive branch had conducted an orderly, deliberate 
process on siting and design. However, H.R. 452, the initial bill for 
the Reagan memorial, would require this memorial to be sited on the 
Mall. The Department supports the process established in the 
Commemorative Works Act. We believe it is appropriate to apply a 
similar process to the selection of a site for a Ronald Reagan memorial 
and for design of the memorial.
    Under the process established by the Commemorative Works Act, the 
National Capital Planning Commission, as the planning entity for all 
Federal projects in the Nation's Capital, and the Commission of Fine 
Arts, as an advisor on public improvements, location, and execution of 
public sculptures, play critical roles in the site selection and design 
processes. We believe that the expertise offered and the approvals 
required by those entities as well as the process for gaining approval 
of the Secretary of the Interior or the Administrator of the General 
Services Administration, as provided for in the Commemorative Works 
Act, has resulted in one of the most beautiful cities in the world.
    We also support the provisions of the Commemorative Works Act that 
enable us to gain a historical perspective on memorial subjects before 
a memorial is designed. The Act prohibits the authorization of a 
memorial to an event, individual, or group before the 25th anniversary 
of the event or the death of the individual or the death of the last 
surviving member of the group. The premise behind the 25-year 
stipulation is that succeeding generations can often provide a more 
objective viewpoint when evaluating the most appropriate way to honor 
people of historical significance or historical events. Notable among 
the many bills introduced in Congress since the formulation of 
standards set by the Commemorative Works Act were several to 
memorialize Dr. Martin Luther King, Jr. The first such bill, introduced 
in 1987, exempted this 25-year period, and the legislation lapsed. 
Although successive measures were introduced for the next 8 years, 
Congress intentionally withheld action on a memorial for Dr. King until 
the 104th Congress, 25 years after the tragic occurrence of his death. 
Former President Reagan is a man who follows the rules, and we believe 
that he is better honored by following the processes set forth in the 
Commemorative Works Act, which he signed into law as President.
    In addition, the Commemorative Works Act provides the American 
people with the opportunity to be involved in decisions about how 
historical events and persons will be honored in the Nation's Capital 
by providing for public involvement in the siting and design of the 
memorials. H.R. 452 does not contain provisions for any such public 
involvement in the Ronald Reagan memorial, and it specifically exempts 
the three-member Commission from the public involvement processes 
required by the Federal Advisory Committee Act.
    By requiring a recommendation to Congress on siting and design of 
the memorial by February 6, 2003, H.R. 452 also places a far more 
difficult deadline on the Ronald Reagan Memorial Commission than under 
the Commemorative Works Act, which provides 7 years to reach a decision 
on siting and design of a memorial. The average amount of time for site 
selection and design process for a major Capital memorial is 4-6 years 
after authorizing legislation is enacted.
    Moreover, we have been informed by the Department of Justice that 
section 3(a)(2) of H.R. 452 raises certain constitutional concerns and 
appears to be inconsistent with other provisions of the bill. At such 
time when further consideration of the bill is appropriate, the 
Administration will be pleased to provide language to remedy the bill's 
constitutional defects.
    In addition to our concerns that, under H.R. 452, the Ronald Reagan 
memorial would not have the advantage of going through the well-
thought-out process established by the Commemorative Works Act, we also 
are concerned about the requirement that the Ronald Reagan Memorial 
Commission raise all of the necessary funds from private sector sources 
to design, construct, and maintain the memorial. Other Presidential 
memorials, such as the Lincoln and Jefferson Memorials, the Washington 
Monument, the John F. Kennedy Center for the Performing Arts, and the 
Franklin Delano Roosevelt Memorial, have all been constructed and 
maintained at least partly with Federal funds.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.
                                 ______
                                 

    [Responses to questions submitted for the record follow:]

    [GRAPHIC] [TIFF OMITTED] T1123.027
    
    [GRAPHIC] [TIFF OMITTED] T1123.028
    
    [GRAPHIC] [TIFF OMITTED] T1123.029
    
    [GRAPHIC] [TIFF OMITTED] T1123.030
    
    [GRAPHIC] [TIFF OMITTED] T1123.031
    
    [GRAPHIC] [TIFF OMITTED] T1123.032
    
    Mr. Hefley. Mrs. Brody?

 STATEMENT OF CAROLYN BRODY, MEMBER, COMMISSION OF FINE ARTS, 
                        WASHINGTON, D.C.

    Ms. Brody. Thank you, Mr. Chairman.
    The Commission of Fine Arts has submitted its written 
testimony. What I would like to do here is to highlight our 
major areas of concern on H.R. 452 and then speak briefly about 
several specific provisions of the legislation.
    The Commission of Fine Arts is charged by Congress with the 
responsibility to review and approve the site and design of 
memorials proposed for the nation's capital and it is one of 
our most serious responsibilities. In our work we are guided by 
another act of Congress, the Commemorative Works Act enacted in 
1986 precisely to establish a structure and process to govern 
decisions about the siting and design of memorials. This Act 
mandates not only that expertise in planning, design and 
architecture is brought to bear but equally important, that 
there is a full participation in deliberation.
    The bill before you today, H.R. 452, contains three 
exemptions to the Commemorative Works Act which are of great 
concern to the Commission of Fine Arts. The bill mandates the 
site location in Area 1, which is also known as the monumental 
core. As you have heard, it is the area that is most sensitive 
to the location of memorials. We share the concern of many 
about the continuing pressure to erect memorials on the Mall.
    The Commemorative Works Act, in fact, mandates a two-step 
legislative process for any Area 1 memorial and allows an Area 
1 location only if the subject is of preeminent historical and 
lasting significance to the nation. This bill does not follow 
the two-step legislative process.
    The second exemption of concern to us relates to the 
Commemorative Works Act provision that allows commemorative 
work to be authorized only after the 25th anniversary of the 
event or the death of the individual. This moratorium has 
ensured that the passage of time confirms the lasting and 
historical significance of the event or individual and it is 
this provision in the face of an increasing number of memorial 
requests that helps to ensure that the reason for the memorial 
does stand the test of time.
    The standard, as you have heard, was most recently put to a 
test in the Martin Luther King, Jr. Memorial when Congress, 
after several entreaties in various Congresses, held to the 
25th anniversary.
    The third exemption in H.R. 452 of concern to us relates to 
process. Congress has put into place through the Commemorative 
Works Act a process for approving the site and design of 
memorials. The Commission of Fine Arts, along with the National 
Capital Planning Commission, play key roles in this approval 
process. We are specifically required to approve the design and 
the site. This is a process which has been thoughtfully laid 
out by Congress and has proven a most effective way to guide 
memorializations. H.R. 452 removes the Commission of Fine Arts 
and NCPC from this approval process.
    I would like to just quickly call your attention to several 
specific provisions in the proposed legislation which have also 
raised concerns with us. Section 4 establishes the Ronald 
Reagan Memorial Commission to be comprised of only three 
members. It charges them with enormous amounts of work--raising 
funds and selecting a design--that even with a strong staff 
would be especially onerous. The commission is required to 
produce a report on the site and design selection by February 
2003, which is an extremely abbreviated time frame, as we have 
all seen, given our experience with other memorials, and 
probably unlikely to be achieved.
    And lastly, Section 4(a) goes on to exempt the commission 
from the Federal Advisory Committee Act, which means that it 
would allow deliberations out of the public eye if the 
commission so chooses. We have learned that in the end, open 
sessions and full public participation are important to any 
memorialization process and given President Reagan's 
extraordinarily public appeal, it seems especially at odds to 
exclude the public in this memorialization.
    I would like to conclude finally by saying that Congress 
has taken great care in giving life to the Commemorative Works 
Act to guide the memorialization process. The Commission of 
Fine Arts feels privileged to have the responsibility that 
Congress has placed in us and it is our strongest 
recommendation to restore to H.R. 452 the provisions of the 
Commemorative Works Act and its participating agencies in this 
worthy endeavor to honor President Reagan. Thank you very much.
    [The prepared statement of Ms. Brody follows:]

     STATEMENT OF CAROLYN BRODY, MEMBER, COMMISSION OF FINE ARTS, 
                            WASHINGTON, D.C.

[GRAPHIC] [TIFF OMITTED] T1123.025

[GRAPHIC] [TIFF OMITTED] T1123.026

    Mr. Hefley. Thank you, Ms. Brody.
    Mr. Dishner?

 STATEMENT OF JIMMY DISHNER, DEPUTY ASSISTANT SECRETARY OF THE 
  AIR FORCE (INSTALLATIONS), THE PENTAGON, ARLINGTON, VIRGINIA

    Mr. Dishner. Thank you, Mr. Chairman. May I start off by 
saying congratulations to you on this Chairmanship.
    Mr. Hefley. Thank you.
    Mr. Dishner. It was an honor for the Air Force and for me 
personally to testify many years before you in the House Armed 
Services Committee and we look forward to working with you on 
anything in the Resource, National Parks, Recreation and Public 
Lands, Mr. Chairman.
    As far as H.R. 107, the Air Force would defer to the 
Administration's position as articulated by the Department of 
Interior. I would like to share with you, however, some of the 
things that the Air Force has done starting in late 1989, 1990, 
1991 through the Legacy program, which was funded to begin to 
look at those Cold War structures, events, memorializations of 
things that mean so much to all of us, a majority of which have 
been created from the Cold War for 11 years. Here we are 
talking about history in the short period of 11 years, but we 
should be and we should be looking at those things because, as 
you and I worked on the other Committee, the maintenance of 
those needs to be done on a timely basis; otherwise the 
significance would lose their value quite rapidly.
    We have done over 100, 103 I believe the number is, of what 
we call Legacy studies, starting in 1991. These Legacy studies 
looked at a variety of Cold War relics and Cold War buildings, 
airfields, pave paws up in the dew line, Alice White. Those 
terms I know are familiar to you, Mr. Chairman. And those 
studies were completed, looked at. Some were discarded as not 
being of significance, of not actually adding to the story that 
we think America would want to have told to our great-
grandchildren and their great-grandchildren as to what was this 
period of time that our nation went through.
    The Air Force has currently 12 national historical 
landmarks already. Some, and I will just mention a few of 
them--Huffman Field, which is that dirt strip out at Wright 
Patterson, very, very significant in the Cold War, to Hickham 
in Hawaii, to Hanger 9 at Brooks Air Force Base, which is a 
wonderful facility. Cape Canaveral Air Force Station, which is 
obviously being used even as we speak today. And Wheeler Field 
over in Hawaii.
    One of the other ones that we looked at that may be closer 
to you, Mr. Chairman, is we also looked at the Cheyenne 
Mountain Air Force Station in Colorado, a very significant 
structure. It is still in use today. It is not a Cold War 
relic; it is a Cold War-constructed facility, 1961 if you 
recall, and was done with great speed and great expertise and 
engineering expertise. We have looked at that and have done the 
first step in determination of eligibility of that building for 
the National Register of Historic Places, as it should be. It 
is the only one that we know of in America and we think if 
another nation has one of those that we do not know about, we 
still think that Cheyenne probably has a leg up on it because 
of the capability.
    Of late, one of the things that we have done in trying to 
add to those Cold War legacies and how we could designate 
facilities to be honored as such, just in the past 30 days we 
have transferred $5 million that was appropriated by the Air 
Force to the Department of Interior for the maintenance of the 
DO-9 and DO-9 launch control facilities near Ellsworth, the 
missile launch facilities. Very significant. Those are not all 
needed now but at least one of those should be kept for 
historical purposes and I think it is well that we do one of 
those.
    There are a number of studies that we have done, Mr. 
Chairman, some of which I think you are familiar with, or 
members of the Committee are familiar with. Coming in from the 
Cold, Military Heritage in the Cold War--this was done back in 
1991, a good start on looking at things like that, a study that 
the Air Force, by the way, helped do this but it was a 
Department of Defense effort. And the Air Force is now doing 
Cold War Assessments, a Legacy project, and that is September 
2000, still under draft. And I just show you these that the Air 
Force, again as I mentioned earlier, did not want too much 
water to flow under the bridge before we started capturing some 
of these facilities and the need that maybe one of those as 
illustrative of all of them should be designated for Cold War.
    And in conclusion, Mr. Chairman, other than the comment I 
made on H.R. 107, I notice in the Committee set-up of that, 
that I would think, since although the Secretary of the Air 
Force has mentioned would be conferred with, that it would be 
to the benefit, I think, if, in fact, the Committee is 
established, to have someone that knows the military history--
it could be a retired military person or something of that 
nature--I think it would add to that to have that connectivity 
and the symbiotic relationship with the Department of Defense.
    And again, sir, it is our pleasure to be here today and I 
stand ready to answer any questions that you may have. Thank 
you.
    [The prepared statement of Mr. Dishner follows:]

 STATEMENT OF MR. JIMMY G. DISHNER, DEPUTY ASSISTANT SECRETARY OF THE 
                       AIR FORCE (INSTALLATIONS)

    INTRODUCTION
    Mr. Chairman and members of the Committee, good morning. I 
appreciate the opportunity to appear before you today to discuss the 
Air Force's perspectives on house bill (H.R.) 107, introduced by 
Congressman Hefley, concerning the proposal for the Secretary of the 
Interior to conduct a study to identify sites and resources, to 
recommend alternatives for commemorating and interpreting the Cold War, 
and for other purposes.
    For the purposes of my testimony today we have used the years 1946 
to 1989 when the Berlin Wall came down as the Cold War period. During 
the period of 1946 to 1989 the Air Force constructed approximately 
145,000 facilities at our active, guard, and reserve installations 
worldwide. The Cold War has only recently been recognized in a historic 
context. Indeed, current architectural references do not list Cold War 
along with such styles as classic revival, Jeffersonian, and the 
Chicago School. As a licensed professional engineer with some forty 
years of service to the Air Force helping to build many of these 
facilities, I can tell you that some are truly engineering marvels such 
as Cheyenne Mountain Air Force Station, Colorado, where construction 
began in 1961. However, not all Cold War associated facilities were key 
to the Air Force mission during the Cold War nor are of historic 
significance. Therefore, the Air Force feels that there should be care 
in evaluating for eligibility properties of the Cold War era. Some 
facilities, such as early warning defense radar systems, air defense, 
and strategic missile facilities, truly were mission essential. 
Numerous examples of many of these facilities can be found at 
installations throughout the United States and are also documented in 
specific state or service efforts. For example, in 1988 the Air Force 
completed a study of the White Alice Communications System. When the 
former Alaskan Air Command scheduled the White Alice sites for 
demolition, the Air Force determined that they might be eligible for 
listing on the National Register of Historic Places. Consequently, the 
Air Force and the Alaska State Historic Preservation Officer signed an 
agreement to produce a historic overview of the system, an inventory of 
the 19 White Alice sites, a statement of significance of the system, a 
map locating the sites and a biography of non-classified material 
relating to the system. Most sites were demolished after this 
documentation was complete.
    As many members of this committee are aware, many military 
facilities are constructed using standardized designs and can be found 
on our installations worldwide. The Air Defense Command (ADC) mission 
was carried out at approximately fifty installations in the United 
States and Canada. An excellent example of this is the ADC's Semi-
Automated Ground Environment (SAGE) building at the former K.I. Sawyer 
Air Force Base in Michigan. There is no evidence that the ADC activity 
at this SAGE facility contributed more to the Cold War effort than 
those activities performed at many other SAGE facilities throughout the 
country.
    Application of the criteria of eligibility and consideration, as 
specified in the National Historic Preservation Act, without more 
detailed guidance from the National Park Service often results in 
inconsistent determinations of eligibility among State Historic 
Preservation Officers and disagreement by the Air Force with the 
determination. Additionally, there is a lack of an overall cohesive 
synthesis of all of the many studies that have been completed at the 
installation and major command levels within each service and among the 
various military services. The tension between what constitutes 
exceptional importance for properties less than 50 years old, including 
Cold War properties and those properties that may be of interest at the 
state and local level have proven problematic, and at times, 
conflicting. Studies such as the 1994 Coming in From the Cold--Report 
of Military Heritage in the Cold War were completed through the DOD's 
Legacy Resource Management Program, an effort established by congress 
in November 1990 under Public Law 101-511 to help conserve natural and 
cultural resources on DOD lands. The Air Force has in the past and 
continues to use Legacy Funding to address Cold War studies at our 
installations. Our major commands report that most of these studies are 
either underway or complete. We have also done specific focus studies 
such as the Searching the Sky Project, an excellent historic overview 
of the development of US Air Force Cold War defensive radar systems. 
However, issues such as classification of materials, proprietary 
information on systems still owned by the weapons manufacturers, and 
treaty compliance mandates regarding static displays also make proper 
Cold War determinations for significance difficult.
    In our efforts to assess and catalogue our Cold War facilities we 
have found that different standards in the evaluation process may lead 
to some properties being incorrectly determined as eligible for listing 
in the National Register of Historic Places. Our view is that there are 
many methods of protecting resources. These include preparing 
comprehensive and oral histories, non- textual literary property such 
as maps, educational websites, videos, brochures, books, the 
preparation of Historic American Engineering Records and Historic 
American Building Records for proper recordation of facilities deemed 
significant to the Cold War mission.
    The Air Force defers to the Department of the Interior for the 
Administrations position on H.R. 107, but recommends that, at such time 
when further consideration of the bill is more appropriate, this 
Committee consider adding a member to the Cold War Advisory Committee 
who is specifically trained in military history. We also recommend that 
the Department of the Interior, National Park Service, and the State 
Historic Preservation Officers work with the military services to come 
to establish standards of eligibility for Cold War era facilities, and 
recommend how many of each type of facility should be retained. In 
other words, we recommend that not every base be required to maintain a 
missile or bomber alert facility if others exist elsewhere. The focus 
should be on operational missions and equipment of unmistakable 
national importance and that has a direct, not merely temporal, Cold 
War relationship.
    As I stated earlier in my testimony we constructed approximately 
145,000 facilities during the Cold War. A potential determination of 
eligibility of even 10% of these facilities for Cold War significance 
would substantially increase our management and oversight 
responsibilities. Further, we recommend the Department of the Interior 
and the National Park Service work with the some 400 aerospace museums 
across the country. Many of these museums have Cold War era pictures, 
maps, artifacts, and aircraft such as Inert Atlas, Titan I & Titan II 
Intercontinental Ballistic Missiles, B-36, B-47 and early model B-52 
aircraft. Many of you may also be aware that the Air Force museum 
located on Wright-Patterson Air Force Base Ohio, the oldest and the 
largest aviation museum in the world, is building a 32 million-dollar 
addition called the Cold War gallery to provide subject matter coverage 
of this important period in the history of our nation and the Air 
Force. This project will be built with private donations and not with 
military construction funds. We have also recently been in discussion 
with the National Trust for Historic Preservation to garner their input 
into public and private partnerships for historic properties including 
those that are determined to be of exceptional importance to the Cold 
War. Many of you may also be aware that the Smithsonian Air Museum 
Annex near Dulles Airport will also display many aircraft, space, and 
Cold War era artifacts.
    We appreciate the tremendous support Congressman Hefley provides 
the Air Force, and look forward to working with members this Committee, 
and the leadership of the Department of the Interior.
    Thank you Mr. Chairman and members of the Committee. I stand ready 
to answer any questions you may have.
                                 ______
                                 
    Mr. Hefley. Thank you, Jimmy. The Air Force, I think, has 
an excellent running start on what we want to do. We do not 
want to overlook and lose this part of our history.
    I am not going to ask all the questions that I had for this 
panel because I want us to get to the next panel and finish up 
before I think we are going to have a series of votes but I do 
not want to discourage anyone from asking questions. We may 
submit questions to you to be returned to us in writing.
    Questions?
    Mr. Souder. Mr. Ring, it is good to see you here and talk 
to you. The position in each of your statements is that 
basically we need to take care of the backlog first. We all 
know we are in transition in the new Administration.
    Do you sense in the preparation of today's testimony that 
that is going to be a hard and fast position or is this kind of 
an initial position as we start into the new Administration?
    Mr. Ring. Sir, I think it is an initial position. There are 
a number of new people coming into the Administration and they 
are trying to get their hands around a wide range of topics and 
they are still very few. So I think they are trying to 
understand the nature and the relationship of these studies and 
these efforts in the context of what is a very important 
initiative for them, which is to deal with the backlog of the 
National Park System. So I think it is an initial position.
    Mr. Souder. Because there is going to be a great deal of 
sympathy on our side to slowing down the process but not 
necessarily stopping the process and trying to figure out how 
we are going to do at least studies and advisory-type positions 
and I encourage you to take that message back, that a complete 
stoppage probably is not going to work; there needs to be some 
sort of an accommodation as to the processes we are going to go 
through, although I think that the Subcommittee Chairman and 
most people on our side of the aisle certainly feel a slower 
pace is a minimal goal. Thank you.
    Mr. Hefley. Mr. Rahall?
    Mr. Rahall. Thank you, Mr. Chairman.
    I want to commend all of you on your testimony and thank 
you for your service to our country and your service in 
protecting our historical heritage and your dedication to the 
good stewardship of our public lands and monuments.
    Just to follow up on the question just asked though, your 
testimony for the National Park Service was approved by 
Secretary Norton before being here today; is that correct?
    Mr. Ring. The testimony that I presented today was approved 
by the Department of Interior and the Office of Management and 
Budget.
    Mr. Rahall. And by the Secretary of Interior, Miss Norton, 
who is not going anywhere anytime soon, is she?
    Mr. Ring. No.
    Mr. Rahall. So you have said it is the initial position but 
I do appreciate the concerns that you have expressed, 
especially with the implementation of the current statute on 
the books and your desire to see that the historical 
perspective be maintained before establishing monuments just 
here and there on the Mall. So I do appreciate that, and the 
concerns you have expressed in opposition to H.R. 452.
    Mr. Ring. Thank you, sir.
    Mr. Rahall. Thank you.
    Mr. Hefley. Any other questions? Yes.
    Ms. Solis. I have one question, if I might. I appreciate 
the testimony that was given, also, and I would ask that if you 
could provide the Committee with information regarding the 
current monuments that are there in place in that area 
regarding the proposed H.R. 452 and we could kind of get a 
better assessment of what is actually there in that particular 
area. And I appreciate the fact that you are going to take an 
initial review and move a little slower on this.
    I, too, have some concerns regarding breaking the mold, so 
to speak, and moving fast and not honoring what has been done 
traditionally. I cannot think of any other monument that has 
been put in place within a span of 25 years or less and I would 
ask you that question, if there has been any.
    Mr. Ring. We would be pleased to submit that for the 
record.
    [The list of memorials in Area 1 submitted for the record 
follows:]

[GRAPHIC] [TIFF OMITTED] T1123.033

[GRAPHIC] [TIFF OMITTED] T1123.034

    Ms. Solis. Thank you.
    Mr. Hefley. Well, thank you very much. It was excellent 
testimony and certainly I think the Committee is sympathetic 
with the idea of taking care of the backlog and we will work 
with you on that and see if we cannot do that. At the same time 
we do need to establish some kind of a priority for things that 
once the backlog is taken care of, that we can begin to move on 
so maybe you can work with us on that, as well.
    Mr. Ring. We would be pleased to do so, Mr. Chairman.
    Mr. Hefley. Thank you very much.
    Mr. Hefley. We will go to our third panel: Mr. Grover 
Norquist, Chairman, Ronald Reagan Legacy Foundation; Mr. Norm 
Wymbs, Chairman, Ronald Reagan Boyhood Home Foundation; Mr. 
Francis Gary Powers, Jr., Founder, Cold War Museum, Fairfax, 
Virginia; and Dr. Bruce Craig, Director, National Coordinating 
Committee for the Promotion of History, Washington, D.C.
    Mr. Wymbs, did you come here from Florida to testify?
    Mr. Wymbs. No, Mr. Chairman. We came from Dixon, which is 
almost as tough.
    Mr. Hefley. Came from where?
    Mr. Wymbs. From Dixon.
    Mr. Hefley. Dixon, Illinois? Well, I am going to call on 
you first because in case we do get interrupted, these that are 
local, we could probably entice to come back again but you have 
come quite a distance so I want to, if I might, I will call on 
you first.

 STATEMENT OF NORM WYMBS, CHAIRMAN, RONALD REAGAN BOYHOOD HOME 
                    FOUNDATION, DEL RAY, FL

    Mr. Wymbs. I appreciate that, Mr. Chairman. I submitted a 
report which I presume you all have, the so-called initial 
remarks. I do not want to particularly elaborate on those. I 
was trying very much to impress you folks with the volunteer 
work that has been done in this community to preserve Ronald 
Reagan's boyhood home.
    And just as a matter off the track--maybe I am a little bit 
out of order here but the prior testimony from the Department 
of Interior made reference to something that concerned us at 
the Reagan Foundation apparently as much as it has concerned 
them so I think we are both on the same track.
    We have been in somewhat informal discussions with Mr. 
Hastert and others concerning this for over two years. It is 
not something that has just been suddenly brought forth. But 
during that time the foundation itself and those of us who are 
active in it expressed a great deal of concern about whether or 
not the Department of Interior would maintain or whichever 
department of the Federal Government took over the home would 
maintain it as well as we have maintained it.
    Now I note that their concern is that they might be picking 
up a pig in a poke because it might require a great deal of 
maintenance that they would not have the funds for. I can 
assure them that they will find the maintenance of this project 
far in excess of many of the historic sites that we have seen 
that do come under the Federal jurisdiction. So our greatest 
concern was that they start out and that they maintain a very 
strong interest in keeping this property in the condition that 
we have kept it in up to this point.
    Just as another point since one of your members raised a 
question earlier or did not raise a question but was quoting 
unfortunately from some news reports and news reports are not--
excuse me, folks--not too accurate, there is no jelly bean 
portrait in this complex. The Federal Government will not be 
buying a bunch of Jelly Bellies. There was a Jelly Belly 
portrait made by the Goetz Candy Company. Mr. Kelly has been a 
strong supporter of many of the things we are doing.
    That portrait has been placed in the Dixon Historic Center, 
which is another project of the Reagan Home Foundation 
considerably larger than the home itself and it will have 
memorials to many distinguished citizens of Dixon. It is 
dedicated to Ronald Reagan because that is where he attended 
the sixth and seventh grades and his brother attended there, as 
well. We will restore the classrooms and the other things there 
for another memorial to Ronald Reagan, which is only three 
blocks away from the home complex but we have put the Jelly 
Belly portrait in there, which will be part of the Reagan 
Historic Museum part of this entire set-up.
    All we wanted to do in expressing this is that concern that 
this be memorialized to Ronald Reagan. When some local citizens 
in the community decided to purchase this property right after 
the President was nominated for his first term by the 
Republican Party, they thought that this home should be saved 
and checked with the President after his election to find out 
whether he would consider helping out.
    His immediate reaction, which was the same as the reaction 
from Neil Reagan, his older brother, was that they considered 
this particular house as their home in Dixon. And you have to 
know a little bit about Ronald Reagan's history prior to the 
time the family moved there in 1920. When they moved there in 
1920 Jack Reagan for the first time in his life had his own 
business. He had found an angel that helped support him, a man 
that he had been working for some time, who put up the 
financing to build his own store. He opened a shoe store there. 
Dixon became then a permanent residence for the Reagan family.
    Up to that point Ronald Reagan in his years in school and 
years in the family had never spent as much as one whole year 
in any single town in Illinois. The family moved quite 
frequently. When they got to Dixon and he was 10 years old at 
the time, that became the permanent home. That became his home 
from then on. This house was the first one they lived in and 
the one they had the strongest memories of.
    Now Ronald Reagan and Neil Reagan both during the time we 
did this, during his two terms, spent a great deal of time with 
us, our historian, our architects, making sure that what we 
restored and turned into a memorial to his early life was 
exactly the way they recalled it. And it is absolutely 
historically the way it was when the Reagans lived there.
    It is quite a complex now. It covers approximately three-
quarters of a square city block. We bought the home next door 
which the President used to refer to as ``Those are the rich 
folks next door.'' It is a house about twice the size of the 
Reagan home. We have turned that into a reception center and 
the office for the Reagan Foundation, as well. We had to build 
public facilities, of course, to take care of the normal 
requirements of public visitors. We bought a number of 
buildings around it. We razed one next door to the Reagan home 
to create a mini-park. This was where Ronald and Neil and their 
friends used to play football in the off-hours after school. It 
was a vacant lot then. We turned it back into a vacant lot but 
since that time we have placed a bronze statue of Ronald Reagan 
in the center and turned it into a mini-park.
    We also had to purchase a number of lots adjoining this 
property so we would have public parking. So it is a completely 
self-contained unit. It is not just the home; it is a complete 
complex and all of these buildings date back to the turn of the 
last century and just before. We figure that the Reagan home 
was built about 1890 or thereabouts. We have no accurate 
records on it.
    We are pretty accurate though in that this building, plus 
the adjoining building, were what we used to refer to as mail 
order homes. In those days when you wanted to build a home of 
your own and you wanted to get it designed properly you bought 
it from mail order houses. Sears Roebuck used to be the largest 
provider of single family homes in the United States. These 
were mail order homes. They were made entirely of hardwood. 
They last forever. You cannot knock them down. The entire house 
is oak and other hardwoods. The homes were cut to size, the 
pieces were cut to size before the buyer got them. The order 
started out by telling them to get a shovel and start digging 
the basement and they went from there on. At the end they sent 
them a catalogue and said, ``Here's the kind of furniture you 
should put in.''
    There are literally hundreds of thousands of these homes 
throughout the country today and this section that Ronald 
Reagan's home is in is a beautiful memorial in itself to that 
early turn of the century. The entire neighborhood has become a 
memorial to the turn of the century because the citizens of 
Dixon are so wrapped up and so in love with Ronald Reagan and 
his family and his history that they themselves, at their own 
expenses, have been restoring their own homes to where this is 
a truly historic landmark in itself and it is about one-quarter 
of the city of Dixon, Illinois.
    So I would assure you folks on the panel, plus the Interior 
people, you are not going to be getting a pig in a poke here if 
they go ahead with this. They are going to get a high quality 
memorial and the one that Ronald Reagan declared was his home. 
And, just as an aside, Ronald Reagan at one point expressed an 
interest in having his museum and library in Dixon but the 
prevailing money folks in California convinced him otherwise.
    [The prepared statement of Mr. Wymbs follows:]

    [GRAPHIC] [TIFF OMITTED] T1123.021
    
    [GRAPHIC] [TIFF OMITTED] T1123.022
    
    [GRAPHIC] [TIFF OMITTED] T1123.023
    
    Mr. Hefley. Thank you very much. That is excellent 
testimony.
    Just very briefly, you all have done an excellent job with 
this from everything I can learn. This is not in any danger of 
having a Walmart built on it or it being destroyed in some way 
if we took the time to go through the normal vetting process 
through the Park Service, is it?
    Mr. Wymbs. No, there is no problem of it going away as long 
as those of us who are presently on the board, and we consider 
ourselves Dixonites, as well, because the city declared us 
honorary citizens when we got into this. But the board is, as a 
matter of policy, only Dixon residents. All the work of viewing 
and showing of the home is done by volunteers, as I pointed out 
in the opening letter.
    We maintain it and we make sure that it is maintained. We 
do not let even a loose board on the porch go unattended 
because we are very hard-nosed about that sort of thing.
    Our biggest concern is that there are a few of us that are 
getting a little bit older and we can never be too sure with a 
private foundation who might be coming later that might have 
different ideas on it. So we wanted to make sure that it was 
put in a place where you folks have a longer life span than we 
have and therefore it would be maintained for a longer period 
of time than we could. But as far as it deteriorating, you have 
no fear about that.
    Mr. Hefley. Thank you very much.
    Mr. Norquist?

 STATEMENT OF GROVER NORQUIST, CHAIRMAN, RONALD REAGAN LEGACY 
                   FOUNDATION, WASHINGTON, DC

    Mr. Norquist. Thank you very much. I serve as Chairman of 
the Ronald Reagan Legacy project and our goal is to honor 
Reagan's legacy and his place in history specifically by naming 
things and building things in his honor in the United States. 
Our goal is to get something significant in each of the 50 
states and something in each of the 3,067 counties in the 
United States. We were very active working with members of the 
House and Senate on the effort to name Reagan National Airport 
and I point out that the next major project will be in honor 
also of Senator Coverdell and his legislation to put Reagan on 
the $10 bill. We will be continuing Senator Coverdell's efforts 
in that direction.
    I am delighted that there is a consensus in the United 
States that we should do something to honor President Reagan 
and the greatness of his presidency. Questions have been raised 
about should you build a memorial for a man or begin to build a 
memorial for a man who is still alive? And what about the 
traditional 25-year waiting period for parts of the Mall? And I 
think it is very important to address both of those questions.
    As Congressman Hansen said, the difference with the case of 
President Reagan is given the nature of the disease he has, his 
public life is over. It is not as if he is going to do or say 
something that would change history's view of his role in 
history and therefore I think the question of doing something, 
naming things after him while he is still alive is not the 
question that it would be for a President who is wandering 
around doing and saying things that might change your view of 
what they had accomplished or who they were as people.
    The question of waiting 25 years I think is a very 
important statement that we want to be very clear, that if we 
are going to put a memorial on the Mall that we do not do it 
hurriedly, and that is why I think we should have a very high 
test, a very strict test of who we honor and what we do and I 
would answer that Ronald Reagan meets that test. I think that 
in the 10 years since the end of the Cold War we have seen the 
greatness of his decision to embark and lead the United States 
in a policy of peace through strength. I think the people of 
Poland and East Germany would be very clear that they 
appreciate his leadership on that.
    This is unlikely to change. People talk about waiting a 
while. We are not going to want to go back to high taxes. We 
are not going to want to go back to inflation. People of East 
Germany are not going to want to go back to being under the 
Soviet empire and the peoples of the former Soviet empire do 
not want a Soviet empire returned, either.
    So on each of those questions, and it is important also to 
think back to when Reagan came here--the double-digit 
inflation, the collapsing economy, the Soviet Union on the 
march in every continent in the world, the United States in 
self-doubt--and Reagan was a Churchillian figure in that he 
stood up against the traditional establishment view of what was 
happening and he said, ``Guys, you have it wrong,'' just as 
Churchill did. And history has made it very clear that 
Churchill was right about the nature of National Socialism in 
Germany and history has shown that Ronald Reagan was right 
about the nature of the Soviet Union and the Socialist 
government there.
    So he not only turned the country around and brought us 
through to victory but he did so under the criticism of some of 
the people who thought of themselves as the best and the 
brightest around, who have been wrong about history and we now 
know were wrong about what was going on.
    If you look at the last 20 years we see it as the extension 
of what Reagan brought into this town. We are now talking about 
reforming Social Security, about building the strategic defense 
initiative, about continuing to reduce taxes, about continuing 
to follow the policy of peace through strength. I think history 
has shown that Ronald Reagan's greatness continues. I think the 
tribute to him on the Mall is very appropriate and I look 
forward to working with you to that end.
    [The prepared statement of Mr. Norquist follows:]

    STATEMENT OF GROVER G. NORQUIST, CHAIRMAN, RONALD REAGAN LEGACY 
                      PROJECT, CONCERNING H.R. 452

    MR. Chairman, and members of the committee and invited guests, my 
name is Grover Norquist and I am Chairman of the Ronald Reagan Legacy 
Project. The Ronald Reagan Legacy Project was formed in 1997 and is the 
most influential organization aimed at promoting the legacy of the 40th 
President. I am here this morning to testify in favor of H.R. 452, the 
Ronald Reagan Memorial Act of 2001.
    The Act specifies that a committee be established to choose a 
location on the National Mall for a memorial to Ronald Reagan. He 
deserves this memorial on America's Mall because he represented 
America.
    Reagan's upbringing represents a wide cross-section of American 
culture. He was a man born in a small Midwest town of humble background 
and later moved to Los Angeles to pursue an acting career. Aside from 
being President of the United States he also served as an entertainer, 
Union leader, corporate spokesman, Governor of California.
    When Congress places a memorial on the National Mall in honor of 
Reagan it will recognize the will of the people who elected him 
overwhelmingly twice to the Presidency. In 1984, he earned the 
confidence of 3/5 of the electorate and was victorious in 49 of the 50 
states in the general election a record unsurpassed in the history of 
American Presidential elections We can all be proud of Reagan's legacy. 
He worked in a bipartisan manner to enact his bold agenda of restoring 
accountability and common sense to Government which led to 
unprecedented economic expansion and opportunity for millions of 
Americans. Mr. Reagan's commitment to an active social policy agenda 
for the Nation's children helped lower crime and drug use in our 
neighborhoods.
    In addition to major domestic accomplishments Reagan authorized 
several National Security Decision Directives (NSDD) that helped end a 
truly evil empire. Too often Reagan is not given credit for his success 
in actively working toward the fall of the Soviet Union. Allow me to 
explain a few of them here.
    NSDD 32 had the objective of supporting movement working to throw 
off communist rule and intensified Radio Free Europe and Voice of 
America as well as reducing Eastern Europe's reliance on the USSR.
    NSDD 66 set policies aimed at: getting European allies to stop 
extending credit at better than market rates, blocking Soviet access to 
the high technologies of Western countries, and developing alternatives 
to Europe becoming dependent on the Soviet Union for natural gas.
    NSDD 75 declared a policy of exacerbating Soviet economic problems 
by working to decrease its export revenues and forcing it to increase 
spending. In fact, we later learned that Gorbachev increased military 
spending to 45 percent of GDP on an economy that was already 
floundering.
    NSDD 78 stated that the US would not accept the existing Soviet 
sphere of influence, but would work to roll it back, restricting 
technologies that might help its economy and exploiting its 
vulnerabilities.
    All of these actions reversed Soviet expansion into countries such 
as Afghanistan, Angola and Mozambique and encouraged freedom 
publications in Poland and encouraged strikes in Poland which spread 
even into Siberia.
    The National Security information concerning the fall of the Soviet 
Union was discussed in detail in the book Victory: The Reagan 
Administration's Secret Strategy that hastened the collapse of the 
Soviet Union by Peter Schweizer (1994: Atlantic Monthly Press).
    Schweizer interviewed dozens of top-ranking Reagan White House and 
National Security officials for his book and concluded that Reagan's 
actions weren't luck but skillful policy which resulted in the end of 
Soviet Communism thus guaranteeing basic human rights for millions of 
persecuted people.
    Recognizing Reagan with this memorial will also pay tribute to our 
armed forces. His commitment to our armed forces contributed to the 
restoration of pride in America, her values and those cherished by the 
free world, and prepared America to win the Gulf War.
    So, when Congress passes this bill it will recognize Reagan's 
achievements of domestic prosperity and promoting international peace. 
Having outlined briefly his legacy, it is clear that it needs to be 
preserved because we can all be proud of his accomplishments.
    It is our goal at the Reagan Legacy Project to preserve his legacy 
by encouraging Governors, state legislators and the general public to 
become involved in the process of naming at least one significant 
landmark or institution after Reagan in all 50 states and 3067 counties 
as well as in former communist countries.
    Currently there are 45 dedications; 42 in the United States and 3 
internationally.
    We have most recently completed a campaign to have Governors and 
State Legislatures honor Reagan on his birthday. The campaign ended 
with 12 Governors and 28 State legislatures honoring the former 
President.
    Nationally, we have also begun work on placing Ronald Reagan's 
portrait on the ten-dollar bill. In the states we have a variety 
projects such as in South Carolina where Reagan's portrait will be hung 
in the State House chamber and in South Dakota where the highway that 
leads to Mt. Rushmore will soon bear the name of the Gipper.
    Clearly, America loved Ronald Reagan and the Congress should 
recognize the will of the people by passing this bill.
    I thank the Chairman for recognizing me and I yield the floor to 
any questions.
 The following is a list of current dedications in honor of President 
                                 Reagan

INTERNATIONAL
Grenada
    <bullet> LGrenada Salutes Ronald Reagan, Leader of Freedom 
(commemorative stamp collection), Grenada [1996]. Proceeds from sales 
go to the Ronald Reagan Scholarship Fund
    <bullet> LRonald Reagan Scholarship Fund, Grenada [1996]. The fund 
is used to send students from Grenada to the United States for study
Marshall Islands
    <bullet> LRonald Reagan Ballistic Missile Defense Test Site, 
Kwajalein Atoll [October, 2000]

IN THE UNITED STATES
Arizona
    <bullet> LRonald Reagan Fundamental School [1984], 3200 West 16th 
St., Yuma, AZ 85364
California
    <bullet> LReagan Center, Los Angeles, CA
    <bullet> LReagan Ranch Leadership Program [1998]. 812-B Anacapa 
Street, Santa Barbara, CA 93101. Affiliated with the Young America's 
Foundation, current owners of Rancho del Cielo (formerly the Reagan's' 
ranch) near Santa Barbara
    <bullet> LRonald Reagan Federal Courthouse--[February 1999]. 411 
West 4th Street, Santa Ana, CA 92701----
    <bullet> LRonald Reagan Freeway, CA [December 7, 1994]. State Route 
118 runs close to the Ronald Reagan Presidential Library. Formerly 
named the Simi Valley-San Fernando Valley Freeway
    <bullet> LRonald Reagan Presidential Library and Museum [1991], 40  
Presidential Drive Simi Valley, CA 93065
    <bullet> LRonald Reagan Professor, School of Public Policy 
(Pepperdine University), Malibu, CA [1999]
    <bullet> LRonald Reagan Elementary School [1998, 10800 Rosslyn Lane 
Bakersfield, CA 93311
    <bullet> LRonald Reagan California Republican Center [renamed in 
1996], 1903 S. Magnolia Blvd., Burbank, CA. 91506. Headquarters of the 
California State Republican Party. Its former name was simply 
``California Republican Party Headquarters''
    <bullet> LRonald Reagan State Office Building,--[1990], 300 South 
Spring Street, Los Angeles, CA 90013.
    <bullet> LRonald Reagan Suite, [1999], Century Plaza Hotel, 2025 
Avenue of the Stars, Los Angeles, CA 90067. This suite, which occupies 
the entire 30th floor of the hotel, was often used by Ronald Reagan 
when he visited Los Angeles during his Presidency. Was formerly called 
the Plaza Suite
    <bullet> LRonald Reagan UCLA Medical Center [to open in 2004]
    <bullet> LRonald W. Reagan Educational Center, Fresno, CA
District of Columbia
    <bullet> LRonald Reagan Building and International Trade Center 
[named in 1995, dedicated May 5, 1998], 1300 Pennsylvania Avenue, NW, 
Washington, D.C. 20004
    <bullet> LRonald Reagan Chair in Public Policy (Heritage 
Foundation), Washington, D.C.
    <bullet> LRonald Wilson Reagan Communications Center (National 
Republican Congressional Committee), Washington, D.C.
    <bullet> LRonald Reagan Institute of Emergency Medicine [1991], 
George Washington University Hospital, Washington, D.C. 20037. Located 
at the hospital where Ronald Reagan was taken immediately after the 
march 30, 1981 assassination attempt. Dedicated by Reagan at the tenth 
anniversary of the assassination attempt.,
    <bullet> LRonald Wilson Reagan Republican Center National 
Republican Senatorial Committee 425 Second Street, NE, Washington, D.C. 
20002-4914
Florida
    <bullet> LRonald Reagan Avenue, Miami, FL. Formerly named Southwest 
Avenue,
    <bullet> LRonald Reagan Turnpike, FL [1998]. 1Formerly named 
Florida's Turnpike.--Runs 312 miles, from north-central Florida to 
south of Miami
    <bullet> LRonald W. Reagan Post Office Building, 2305 Minton Road, 
West Melbourne, Florida [October 27, 2000]
Georgia
    <bullet> LRonald Reagan Drive, Columbia County, Augusta, GA 
[December 1, 2000]
    <bullet> LRonald Reagan Parkway, Gwinett County Lawrenceville, GA
Illinois
    <bullet> LReagan Physical Education Center [1970], Eureka College 
300 E. College Avenue Eureka, IL 61530 Originally dedicated in 1961 as 
``The Reagan Center,'' in honor of both Ronald Reagan and his brother 
Neil.--Constructed to house all of Eureka College's athletic 
facilities.--Acquired its present name in 1970.
    <bullet> LReagan Drive, Eureka, IL [1979], Runs along the southern 
edge of Eureka College, Reagan's alma mater
    <bullet> LRonald W. Reagan Exhibit [1994], Eureka College Eureka, 
IL. 61520----, A permanent exhibit covering Ronald Reagan's entire life
    <bullet> LRonald W. Reagan Leadership Program Eureka College 
Eureka, IL. 61530 Established in 1982; began with students in the Fall 
of 1983.
    <bullet> LRonald & Nancy Reagan Research Center (Alzheimer's 
Association) [1995], 919 N. Michigan Avenue Chicago, IL 60611
    <bullet> LRonald Reagan Birthplace [1980], 111 S, Main Street 
Tampico, IL. 61283. Locally operated, includes a museum and a gift 
shop, which are located next door to the building in which Reagan was 
born
    <bullet> LReagan Park [1985], Tampico, IL. Formerly Railroad Park
    <bullet> LRonald Reagan Boyhood Home [1984], 816 S. Hennepin Ave., 
Dixon, IL. 61202 Ronald Reagan lived in this house during part of his 
teenage years (1924-1928).--It is now locally operated as a Museum.
    <bullet> LRonald Reagan Bridge, Dixon, IL
    <bullet> LRonald Reagan Highway U.S. Highway 14; runs from Chicago 
north to the Wisconsin State line.
    <bullet> LRonald W. Reagan Middle School [1996], 620 Division 
Street Dixon, IL. 61021 Formerly named Madison School
Iowa
    <bullet> LRonald Reagan Historical Marker, Des Moines, IA [November 
9, 1999]
Mississippi
    <bullet> LThe Reagan Hope Home Located on a ranch that is part of 
the Mississippi Sheriffs Boys and Girls Ranches
New York
    <bullet> LRonald Reagan Boulevard, Warwick, NY
Ohio
    <bullet> LRonald Reagan Highway Cincinnati, OH, Runs across the 
northern suburbs of Cincinnati.
Oklahoma
    <bullet> LStatue at the National Cowboy Hall of Fame, Oklahoma 
City, OK
Texas
    <bullet> LReagan Leadership Society [1997], 389 MSC Student Finance 
Center Texas A&M University College Station, TX. 77843. A society 
dedicated to building student leadership for the Texas A&M campus and 
the community at large. Its student founder named the society in 
recognition of Reagan's ``ability to communicate, his ability to 
inspire confidence, and his kind personality.''
Virginia
    <bullet> LRonald Reagan Washington National Airport, Arlington, VA. 
[1998]. Formerly named Washington National Airport
    <bullet> LUSS Ronald Reagan nuclear aircraft carrier [to be 
completed by 2002].
                                 ______
                                 
    Mr. Hefley. Thank you very much.
    Mr. Powers?

   STATEMENT OF FRANCIS GARY POWERS, JR., FOUNDER, COLD  WAR 
                   MUSEUM, FAIRFAX, VIRGINIA

    Mr. Powers. My name is Francis Gary Powers, Jr. from 
Fairfax, Virginia. I am the founder of the Cold War Museum. I 
am pleased to have this special opportunity today to testify 
before the Subcommittee. I would like to express my gratitude 
to Congressman Hefley for inviting me here and for sponsoring a 
bill so significant to our country.
    This bill means much to me personally. As the son of a 
famous Cold War figure, I grew up with the Cold War. The Cold 
War Museum began for me as a way to honor my father but soon 
took on a much greater life and purpose. I am working toward a 
museum that will honor all the men and women who worked for 
democracy and freedom during the Cold War.
    The museum is not about reviving old hatreds. Rather, it is 
about promoting lessons learned. It is about teaching democracy 
in the pursuit of world peace. The Cold War Museum will 
dedicate resources to commemorating those whose deeds and 
sacrifices furthered democracy but the museum strives for an 
international and objective understanding of the Cold War, one 
of the most intense periods of conflict and most dangerous 
years in human history.
    The purposes of the Cold War Museum are to preserve the 
artifacts important to that period, to interpret the Cold War 
through research and information-gathering, and to serve as the 
focal point for information and preservation activities related 
to the Cold War era. The museum's distinguished board of 
directors are experts in museum management, nonprofit 
management, and various aspects of Cold War history. We also 
have an advisory board which includes Sergei Khrushchev, Nikita 
Khrushchev's son, Eisenhower aide Ambassador Vernon Walters, 
and renowned photographic interpreter Dino Brugioni.
    Recently the Cold War Museum developed a list of important 
Cold War sites, which is the focal point of your bill, with the 
eventual goal of recognizing a Cold War site in every state. I 
have included this list in our collateral material.
    The museum does not have a permanent home but we do sponsor 
traveling exhibits that have been on display throughout the 
United States, including at the CIA in Virginia and 
internationally in Germany, Norway and Russia.
    America has honored men and women from many wars who died 
for freedom but whatever the reason, there has been almost no 
recognition of the Cold War, an era that lasted almost 50 
years, cost thousands of lives, trillions of dollars, changed 
the course of history and left America the only superpower in 
the world.
    However, the Cold War is virtually unknown to the current 
generation. This is a great disservice to those who gave their 
lives during the Cold War.
    James Billington, Librarian of Congress, said in a foreign 
policy speech, ``The Cold War was the central conflict of the 
second half of the 20th century, the longest and most 
unconventional war of the entire modern era and an 
unprecedented experience for Americans. We were faced for the 
first time in our history with an opponent who was both 
ideologically committed to overthrowing our system and was 
equipped to destroy us physically.''
    Journalist Charles Krauthammer in an op-ed piece in the 
Washington Post entitled ``Build a Cold War Memorial'' had this 
to say. ``The Cold War did not have the dramatic intensity of 
World War II but it was just as real and just as dangerous. 
Though often clandestine and subtle, it ranged worldwide, cost 
many lives, evoked much heroism and lasted what seemed like 
forever. Considering the stakes, the scope and the suffering, 
this was a struggle that deserves commemoration.''
    Although the Cold War periodically resurfaces in the news 
as is evident by the Hanssen spy case, many people really do 
not understand the background or the history. The Cold War 
Museum's website testifies to the public's need for 
information. Over the past 23 months 250,000 visitors have 
visited our website at Coldwar.org. Those who have tested their 
knowledge on our Cold War trivia and history quizzes help make 
the case for passage of H.R. 107. Ten percent of the 
respondents believe that John F. Kennedy was President of the 
United States when the Soviet Union was dissolved. The need for 
the passage of H.R. 107, the construction of a Cold War Museum 
and related educational programs, is clear.
    Charles Krauthammer went on to say about a proposed Cold 
War Monument, ``It needn't be grandiose but it must have a 
small museum for instruction. A gallery of heroes: Truman, 
Marshall, Churchill, Reagan. A hall for the fallen: the secret 
agents who died anonymously. A tribute to allies and 
friends...and a gulag display so that our children will learn 
the nature of evil.''
    Congressman Hefley, we would like to suggest that the 
Department of the Interior conduct a study to establish the 
value of a permanent Cold War Museum and Memorial as the 
central repository for Cold War artifacts and information. Our 
plans include the following: display Cold War photos, art work 
and artifacts, establish an endowed research chair at the Cold 
War Museum, collect biographies on key Cold War figures, record 
oral and written histories to capture the human side of the 
conflict, create an inventory of key technologies that resulted 
from the Cold War research and development, and finally, 
develop a comprehensive inventory of significant Cold War sites 
and resources that need to be preserved, such as military 
bases, homes of key figures, laboratories, test sites and 
historic places.
    Congressman Hefley, we believe that it is vital to begin 
now to preserve these historic resources. Sites are being lost 
to developers and information gets lost every day.
    I am proud to say that the Cold War Museum has recently 
become an affiliate of the Smithsonian Institution. They have 
agreed to conduct a feasibility study with us to determine what 
artifacts from the national collection can be used in our 
displays and exhibits. We have also received offers of support 
from a variety of sources, including the Holocaust Museum, 
Voice of America and the embassies of Hungary, Lithuania, 
Latvia, Estonia and Slovakia.
    In the coming weeks and months Congress will consider a 
number of issues. H.R. 107 should certainly be included in this 
agenda to preserve American history and significant Cold War 
sites. We believe the interest and support of James Billington, 
Charles Krauthammer, the Smithsonian Institution, the Voice of 
America, the Holocaust Museum and various embassies and schools 
are obvious proof that this bill and the Cold War Museum would 
be of considerable value to our country.
    Congressman Hefley, the directors of the Cold War Museum 
and I would like to express our strongest possible support for 
your bill. H.R. 107 will help educate future generations about 
the Cold War, honor Cold War veterans and preserve Cold War 
history. The mission and goals of the Cold War Museum further 
the objectives of H.R. 107. We hope to continue to be involved 
with helping you and the commission when it is established. 
Please feel free to call upon us at any time. Thank you very 
much.
    [The prepared statement of Mr. Powers follows:]

    [GRAPHIC] [TIFF OMITTED] T1123.005
    
    [GRAPHIC] [TIFF OMITTED] T1123.006
    
    [GRAPHIC] [TIFF OMITTED] T1123.007
    
    [GRAPHIC] [TIFF OMITTED] T1123.008
    
    [GRAPHIC] [TIFF OMITTED] T1123.009
    
    [GRAPHIC] [TIFF OMITTED] T1123.010
    
    [GRAPHIC] [TIFF OMITTED] T1123.011
    
    [GRAPHIC] [TIFF OMITTED] T1123.012
    
    [GRAPHIC] [TIFF OMITTED] T1123.013
    
    [GRAPHIC] [TIFF OMITTED] T1123.014
    
    [GRAPHIC] [TIFF OMITTED] T1123.015
    
    [GRAPHIC] [TIFF OMITTED] T1123.016
    
    [GRAPHIC] [TIFF OMITTED] T1123.017
    
    [GRAPHIC] [TIFF OMITTED] T1123.018
    
    Mr. Hefley. Thank you, Mr. Powers. You have obviously done 
a lot of thinking and work on this and we appreciate your 
knowledge.
    Dr. Craig?

 STATEMENT OF DR. BRUCE CRAIG, DIRECTOR, NATIONAL COORDINATING 
             COMMITTEE FOR THE PROMOTION OF HISTORY

    Mr. Craig. Thank you, Mr. Chairman. I am Bruce Craig. I am 
the Director of the National Coordinating Committee for the 
Promotion of History, which is a consortium of 59 historical or 
archival organizations. The NCC serves as the national advocacy 
office for the historical and archival professions. My 
education--I am a specialist in the Cold War and the history of 
espionage. As of today I consider myself also an expert on 
colds in general so please tolerate my husky voice.
    I am pleased to appear before the Subcommittee today in 
support of H.R. 107, your legislation, Mr. Congressman, to 
conduct a national landmark theme study to identify sites and 
resources that are related to the Cold War. We support the 
enactment of this legislation even as presently drafted. 
However, I would like to present for your consideration a 
couple of ideas that might actually strengthen the bill.
    Certainly for much of the second half of the 20th century 
the contest between two nuclear superpowers, the former Soviet 
Union and the United States, has defined the character of 
global and domestic politics. The threat of mass destruction 
that carried with it the very real possibility of annihilation 
of not only the citizens of both nations but nearly everyone 
else on earth also left a permanent mark on American life and 
politics.
    In international politics, the contest between the 
superpowers shaped American foreign policy worldwide. In the 
realm of domestic politics, it was the culture of the Cold War 
that completely transformed aspects of American life.
    Clearly, there is a need to identify, to document and to 
preserve sites and resources that illustrate Cold War history. 
There already are some Cold War-related sites that are listed 
on the National Register of Historic Places. There are also 
some sites that are established as national historic landmarks. 
For example, the Westminster College Gymnasium in Fulton, 
Missouri where Winston Churchill delivered his famous March 
1946 "Iron Curtain" speech that has long held as a seminal 
event and marks the beginnings of the Cold War, has been a 
national landmark for some number of years.
    However, the National Park System is woefully inadequate in 
interpreting and preserving resources relating to the Cold War. 
This theme study should serve as the catalyst for the creation 
of a Cold War National Historical Park.
    In terms of some specific suggestions for strengthening 
this legislation, Section 1 of this section presently focuses 
largely on sites associated with American military strategy and 
technology. We believe that the legislation needs to be 
broadened to include perhaps a more diverse collection of 
sites, some of which Gary Powers has mentioned and some 
specific recommendations are in my written testimony, as well.
    Also, we believe that the study should take a look at sites 
that are associated with the domestic war; for example, sites 
associated with intelligence-gathering and I might note 
espionage, as well, and certainly some associated personalities 
with the Cold War.
    So that the study does not degenerate into simply an 
assessment of a motley collection of historic sites, some type 
of framework for assessment seems to be necessary, as well. We 
believe the theme study should concentrate on people, events 
and sites that are associated with a number of Cold War 
hallmarks, which are itemized in my testimony.
    In terms of Section 3, the advisory committee, we certainly 
believe that there is a necessity for some type of outside 
review and assistance from the historical organizations and 
institutions in crafting this theme study--but it need not be 
an advisory committee. This Committee might want to consider 
directing the Park Service to conduct a series of workshops 
comprised of academic scholars, knowledgeable preservationists 
and NPS professionals. The Park Service has certainly had 
previous experience in conducting this type of information-
gathering workshops. The history of the National Park Service 
themes and concepts, in essence, the overall theme study 
framework that was adopted by the Park Service in 1994 followed 
this type of framework, and, more recently, the painting and 
sculpture theme study that was put together in 1991 also made 
use of this model. We think that these workshops perhaps might 
be a little bit better in terms of getting the advice that the 
Park Service needs in terms of the establishment of a Cold War 
National Park and the production of a Cold War theme study.
    Thank you for the opportunity to discuss this legislation 
with you, Mr. Chairman. I certainly welcome any questions that 
you or the other members of the Subcommittee might have.
    [The prepared statement of Mr. Craig follows:]

STATEMENT OF BRUCE CRAIG, DIRECTOR, NATIONAL COORDINATING COMMITTEE FOR 
               THE PROMOTION OF HISTORY, WASHINGTON, D.C.

    I am Bruce Craig, Director of the National Coordinating Committee 
for the Promotion of History (NCC), a national consortium of 59 
historical and archival organizations. Since 1982, the NCC has served 
as the national advocacy office for the historical and archival 
professions. Specifically, we provide information services to Members 
of Congress and other policymakers. The NCC also represents member 
organizations on matters relating to Federal funding and 
appropriations, policy, and legislation that have an impact on 
historical and archival programs, research, and teaching.
    I possess a Ph.D. in history (1999) from The American University, 
Washington D.C. I am a cold war historian with a speciality in the 
history of espionage. My dissertation, Treasonable Doubt: The Harry 
Dexter White Case, 1948-1953'' traces the espionage activity of 
Treasury Department officials during the early cold war period. I have 
written and published extensively on the cold war for over fifteen 
years. I am also the principal in the legal challenge, Craig v. USA 
which served as the catalyst for the 1999 Federal court judgment that 
resulted in the unsealing of the grand jury records relating to the 
Alger Hiss case. This was the first time in American history that grand 
jury records had been unsealed solely on the basis of their historical 
interest and value.
    I am pleased to appear before this subcommittee today in support of 
H.R. 107--legislation introduced by Representative Joel Hefley to 
direct the Secretary of the Interior to conduct a National Landmark 
theme study to identify sites and resources relating to the cold war 
and to recommend alternatives for commemorating and interpreting the 
cold war era. While the NCC fully supports the intent and objectives of 
this legislation, and we support enactment of this legislation even as 
presently drafted, I would like to present for the Subcommittee's 
consideration, a few ideas that may strengthen the bill.
    Mr. Chairman, for much of the second half of the twentieth century, 
the contest between two nuclear superpowers--the former Soviet Union 
and the United States--defined the character of global and domestic 
politics. The threat of mass destruction that carried with it the very 
real possibility of annihilation of not only the citizens of both 
nations but nearly everyone else on earth, also left a permanent mark 
on American life and politics. The cold war (as it was dubbed in 1947 
by journalist Walter Lippman) created an atmosphere of ever-present 
fear of thermonuclear war that nearly every American over the age of 30 
can well remember.
    In the realm of international politics, the contest between the two 
superpowers shaped American foreign policy worldwide: for some 
historians, the term preponderant power most accurately describes 
America's foreign policy objective with respect to the Soviet Union and 
its communist bloc allies. Preponderant power was achieved through 
unprecedented expenditures on the military (creating what President 
Eisenhower characterized as the military-industrial complex ) and 
through the creation of mechanisms for international collective 
security (NATO and NORAD are but two examples). Through these 
institutions the United States sought to check the expanding power of 
the Soviet Union.
    In the realm of domestic politics, from the late 1940's through 
1990 when what President Ronald Reagan characterized as the evil empire 
collapsed, the culture of the cold war completely transformed aspects 
of American life. For example, the excesses of the so-called McCarthy 
Era played on the popular fear of communist subversion, which with 
thanks to the relatively new invention of the television, found its way 
into the middle-class American household, and permeated the American 
psyche. Another example--the fallout from the Alger Hiss-Whittaker 
Chambers controversy gave rise to the creation of an anti-communist 
liberal tradition and gave new impetus to the modern conservative 
movement. The cold war also provided momentum to the career of dozens 
of political leaders (perhaps most notably Richard Nixon), many of whom 
dominated the political scene for the next three decades.
    Clearly there is a need to identify, document, and preserve sites 
and resources that illustrate cold war history. I believe that the 
historic events and associated locations of this time period will be 
viewed by future generations of Americans as being every bit as 
important to preserve as many Americans view Civil War sites today. 
With the exception of the Civil War, no other war has shaped the 
American character so subtly or so intricately as did the cold war. 
This is because virtually every American was a front-line soldier in 
the battle to defeat communism. Its fallout was unforgettable.
    While there are some cold war related sites listed on the National 
Register of Historic Places (for example, the Oak Ridge Historic 
District in Tennessee) and there are a few National Historic Landmarks 
that commemorate people and events related to cold war history, (for 
example, the Westminster College Gymnasium in Fulton, Missouri where 
Winston Churchill delivered his famous March 1946 Iron Curtain speech--
long heralded as the seminal event marking the beginning of the cold 
war) for the most part, historic sites in our National Park System are 
woefully inadequate in interpreting and preserving resources relating 
to cold war history. At some already established sites, there are 
specific locations and resources that could be more fully interpreted 
to tell aspects of the cold war story--the Harry S. Truman National 
Historical Site in Missouri and the Eisenhower National Historic Site 
in Pennsylvania are but two examples. Still, there is no 
representational national historical park focusing upon cold war 
history. There ought to be. This theme study should serve as the 
catalyst for the creation of cold war National Historical Park.
    Here then, Mr. Chairman are some specific suggestions for 
strengthening this legislation:
    Section 1. COLD WAR STUDY
    The thrust of this bill presently focuses upon sites associated 
with American military strategy and technology. The legislation needs 
to be broadened to include a more diverse collection of sites--both 
sites associated with the military story of the cold war as well as the 
social and non-military aspects of that war. To this end, let me 
discuss each in order.
    First, with respect to the military related resources, the 
legislation should be more inclusive in focusing on diverse types of 
resources. For example, in addition to the types of sites reflected in 
the reports and inventory of sites mentioned in the legislation [see 
page 2, items (1) and (2)], it should be noted that the National Park 
Service maintains a master listing of National Register and National 
Historic Landmarks sites that include cold war sites. Here one finds 
listings of a Nike missile and other missile bases, ICBM launch 
complexes, proving grounds, military and civilian operations/
communications centers, air defense centers, and at least one nuclear 
reactor--all these sites should be examined in context with other 
military-related cold war sites.
    In addition, each State Historic Preservation Office maintains a 
state inventory of historically significant sites (including sites of 
local or regional, as well as national, significance). These sites 
should be assessed in context with this study. Other resources--
including representative examples of historic ships (especially 
submarines) and airplanes (the B-29 bomber, for example, for years 
served as the principle short-range strategic strike weapon) also need 
to be preserved and interpreted. To this end, we recommend either 
legislative or report language be added directing the Secretary to 
consult with other Federal agencies and state governments and 
historical institutions in compiling a master inventory of cold war 
sites and resources. This should not be a costly endeavor as much of 
the work has already been completed; it need only be compiled into a 
central data base.
    Second, the legislation needs to be broadened to assess sites of a 
non-military nature that contribute to telling the story of the cold 
war from the perspective of government officials and civilians. To this 
end, the assessment should include: Federal buildings such as the State 
Department Building in Washington, D.C., sites associated with 
intelligence gathering (i.e., the CIA, FBI and NSA headquarters) and 
espionage (the home of Nathan Gregory Silvermaster who spearheaded the 
largest communist intelligence gathering apparatus in Washington, D.C. 
during World War II which centered out of a residence at 5515 30th 
Street, is an ideal candidate for assessment), the headquarters of 
fringe political movements such as the Communist Party USA and John 
Birch Society; sites associated with cold war personalities, including 
(but not limited to) Henry Luce, John McCloy, Allen and John Foster 
Dulles, Lucius Clay, Dean Acheson, Douglas MacArthur, Paul Nitze, 
Averell Harriman, Joseph McCarthy, George Kennan, George C. Marshall, 
and Ronald Reagan. And certainly no cold war theme study could be 
considered complete without assessing the merits of preserving the 
bunker under the Greenbriar Hotel in West Virginia that was set aside 
to provide refuge for high government officials in case of nuclear war, 
as well as typical representative civilian defense bunkers. With 
respect to the assessment of these sites (some of which may prove 
controversial), it should be remembered that the purpose of the theme 
study is to document where history happened, and not necessarily in 
every case to commemorate or celebrate where history happened. Those 
decisions are best left to others.
    So that this study does not degenerate into an enormous assessment 
of a motley collection of historic sites, some framework for assessment 
needs to be created to give guidance to the NPS. The legislation should 
provide that framework. To this end, at a minimum, we suggest the theme 
study concentrate its assessment work on people, events and sites 
associated with the following cold war hallmarks:
    <bullet> LBeginnings of the cold war
    <bullet> LMarshall Plan and the German Question (including sites 
associated with the Berlin airlift)
    <bullet> LDevelopment of Nuclear Weapons
    <bullet> LStrategic Defense and Offense at Home and Abroad
    <bullet> LThe cold war on the Home Front
    <bullet> LDevelopment of the National Security State (including 
Espionage sites)
    <bullet> LKorean and Vietnam War (the domino theory in practice)
    <bullet> LCuban Missile Crisis (including training and staging 
sites associated with the Bay of Pigs invasion)
    <bullet> LEnd of the cold war (through the creation of the Russian 
Republic and Commonwealth of Independent States)
    Section 2. INTERPRETIVE HANDBOOK ON THE COLD WAR
    We fully support the production of an interpretive handbook on the 
cold war that focuses on historic sites and resources, people, and 
events associated with the era. The cost associated with the production 
of such an interpretive book, I understand, generally runs about 
$100,000. Therefore, the dollar figure in Section 4 (AUTHORIZATION OF 
APPROPRIATIONS) may need to be revised upward.
    Section 3. COLD WAR ADVISORY COMMITTEE
    We believe that there is a necessity for some type of outside 
review and assistance from historical organizations and institutions in 
crafting this theme study. Either some type of advisory committee along 
the lines of the one established in Section 3 needs to be created, or 
another suitable alternative should be Congressionally mandated.
    Instead of creating an advisory committee, the Committee may want 
to consider directing the National Park Service to conduct two 
workshops comprised of academic scholars, knowledgeable 
preservationists, and NPS professionals. During the first scoping 
meeting, the workshop participants would provide advice in discussions 
about representational themes, help refine the study framework, advise 
on methodology for collecting data and suggest sites for study and 
assessment. At a second review meeting (conducted after a draft report 
has been prepared), the same group of experts would review the NPS 
draft report and make formal recommendations relating to the selection 
of National Landmark nominations and sites that meet the tests of 
national significance, suitability and feasibility thus making them 
candidates for possible National historic site or national historical 
park designation.
    Mr. Chairman, the National Park Service has had previous experience 
in conducting this type of information gathering workshop. For example, 
the NPS in partnership with the Organization of American Historians 
assisted in the development of the History in the National Park 
Service: Themes and Concepts, historic site framework which was adopted 
by the NPS in 1994. Several dozen scholars and academics also assisted 
the NPS in a Painting and Sculpture Theme Study Workshop conducted June 
10-14, 1991. That workshop resulted in the creation of a Framework for 
the Visual Arts Theme Study that defined the National Park Service's 
role in preserving and interpreting sites associated with American 
painting and sculpture. The Committee may want to model the workshop 
requirement after legislative language found in Public law 101-628 
Section 1209 (1991) directing the NPS to revise the 1986 thematic 
framework. It well may be, though, that the more relevant model is the 
Painting and Sculpture Theme Study Workshop which had no legislative 
mandate. I would be pleased to provide the Committee with copies of 
both of these excellent reports that were prepared based on this 
workshop model.
    I thank you for the opportunity today to discuss this legislation 
and I welcome any questions the members of this Committee may have.
                                 ______
                                 
    Mr. Hefley. Thank you, Dr. Craig.
    And I am pleased that we did get all the testimony in 
before the bells started going off. As I said earlier, we may 
want to submit questions to you to be answered in writing.
    In the meantime, Mrs. Christensen, do you have questions?
    Mrs. Christensen. Thank you, Mr. Chairman. I do have maybe 
a few for both Mr. Norquist and Mr. Wymbs.
    Mr. Norquist, in developing the Ronald Reagan Memorial we 
would be really making an exception to the CWA on a case-by-
case basis and I am having difficulty understanding why we 
should make such an exception.
    If the 25-year waiting period contained in the CWA were 
respected in this case in your opinion wouldn't this memorial 
still be built, that the legacy of President Ronald Reagan is 
such that it can withstand the 25 years until such time that it 
would be in compliance with the law?
    Mr. Norquist. I think his legacy certainly stands the test 
of time. It is my point that the legacy is so clear and it is 
very unusual that a legacy is this clear this early, that his 
victory over Communism was so complete, his success as a 
President and his character so exceptional that we can make 
this exception.
    And I fully agree with you. It is a big exception. It 
should be a rare exception. I do not expect us to be fighting 
and winning a Cold War again for hundreds of years. These are 
very substantial accomplishments that Reagan had and they are 
very unique ones.
    So yes, I agree with you that it should be an exception, 
that it should be rare and I would argue and I think the 
country agrees that Ronald Reagan's greatness is of that 
nature.
    Mrs. Christensen. In spite of the fact that President 
Reagan himself agreed with the 25-year period of waiting?
    Mr. Norquist. Every time you pass a law you supersede all 
the previous laws you have passed and Congress does it every 
week here. I think what Reagan signed in the previous law is 
generally the right thing to do but obviously it is not in the 
Constitution so it is a law that new laws can supersede and I 
think we should put it to Congress that the greatness of 
Reagan's presidency and his accomplishments do merit making the 
exception, and it should be an exception. It should be rare. 
The law is a good one.
    Mrs. Christensen. We do not disagree with the contributions 
but I think it is a bad precedent to set, to make an exception 
like this.
    And there is another departure, which is to remove the 
National Capital Planning Commission and the Commission of Fine 
Arts from the approval process for the memorial. Why is it 
necessary, do you think, to create another Federal commission 
to oversee this memorial?
    And as a follow-up to that question, if the memorial is 
subject to the review by the two entities, the National Capital 
Planning Commission and the Commission of Fine Arts, don't you 
think it would still move forward, given the 25-year waiting 
period?
    Mr. Norquist. I am supportive of Congressman Hansen's 
proposal. I am not wedded to the particulars. I am sure that he 
had reasons for structuring it the way he did. I would defer to 
his thoughts and recommend that he sit down with you on why he 
did it that way.
    Mrs. Christensen. Okay, just two more brief questions for 
Mr. Wymbs, the Chairman of the Ronald Reagan Boyhood Home 
Foundation.
    Mr. Wymbs, would you be opposed to the Park Service 
completing a standard resource study of the site before we move 
forward with Federal acquisition?
    Mr. Wymbs. It makes no difference to me what is done 
because I know the condition of the property and what we have 
there and there is going to be no difficulty with any type of 
study. We will be happy to have our people there show them 
anything they need to see.
    Mrs. Christensen. Do you have an estimate for how much it 
would cost for the Federal Government to acquire and restore 
the site?
    Mr. Wymbs. In our first talks with the people we know full 
well that, of course, we cannot recoup what the Foundation 
itself has spent. It has been quite an expensive proposition. 
Just as an example, the Reagan home itself we bought for 
$29,000. It had been converted from a single-family home into a 
two-flat. We laugh about the price of it because it only cost 
us $450,000 to restore it to its original condition.
    So we cannot estimate. As I told one of the staff members 
from the Committee that called me, I said there is no way we 
could come up with an estimate of the value of what has been, 
for example, put into the corner park. How do you estimate the 
value of what essentially is a small vacant lot with a 15-ton 
bronze statue right in the middle? Our appraisers could not 
touch that. We could not come up with any figures for you 
because this has been an on-going process since the early 
1980's when the President was elected and the money has been 
spent over those years and we do not show it anywhere in our 
books and records as a real investment in the property, but it 
is all there.
    We are willing to go with whatever values the department 
comes up with with their own expert examination, providing they 
do not make us look too silly in selling it.
    Mrs. Christensen. Just one final question. What 
relationship, if any, does this site have to the Ronald Reagan 
birthplace in Tampico, where I believe he spent a longer time?
    Mr. Wymbs. Ronald Reagan was only there for a very few 
months after his birth. He was a babe in arms when the family 
moved from there. It was a small apartment above a store in a 
small town that is about three blocks long. That has no 
relationship here.
    The family, oddly enough, was living in Tampico just before 
they moved to Dixon but the house they lived in down there is 
not available to the public. It is in private ownership and 
they will not even let you set foot on the property. Again it 
was a house that they rented for a short period of time, as Mr. 
Jack Reagan, Ronald's father, made arrangements with the owner 
of the store he was working for to finance the new store up in 
Dixon. So the President had no real memory of that spot.
    Mrs. Christensen. I thank all of our panelists for their 
testimony. I apologize for having to step out for a few 
minutes.
    Mr. Hefley. Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman. Just a brief remark.
    The Cold War began basically when Harry Truman was 
President and began to wind down under President Ronald Reagan.
    Mr. Powers, it is interesting. I lived in Pesawar, Pakistan 
in 1958 and '59 and there were two American facilities there at 
the time--the American Air Force base plus the CIA base. One 
was nonexistent and the other was secret.
    It was very interesting. Shortly after I returned home I 
realized that I was living very, very near a very crucial 
element of our effort to defend ourselves in the Cold War and 
your father played a very important role in that defense and we 
certainly appreciate that. It was very interesting to realize 
that I was so close to what was a very closely guarded secret 
over there but a very important element in our efforts to 
defend ourselves. I appreciate your testimony.
    Mr. Powers. Thank you for your remarks and the honoring of 
my father.
    Mr. Hefley. I want to thank this panel, as well. I think 
the testimony was especially helpful. We may be coming back to 
each of you not only to respond to questions but to get 
additional help in forming legislation. And Dr. Craig, I 
appreciate your suggestions about how to make the legislation 
on this Cold War thing better.
    I appreciate, Mr. Wymbs, what you all in Dixon have done. 
If you had not stepped in and done that that would not be 
available. We would not be considering something like this at 
this point. So I appreciate that a group of citizens took it 
upon themselves to proceed that way.
    Mr. Powers, I have, and I am sure the Committee has, great 
respect for your father. He was a true cold warrior who risked 
his life and almost lost his life to defend this country and we 
appreciate what he has done and we appreciate what you are 
doing to preserve that heritage.
    Mr. Powers. Thank you.
    Mr. Hefley. If there is nothing else, the Committee stands 
adjourned.
    [Whereupon, at 12:05 p.m., the Committee was adjourned.]


</pre></body></html>
